APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the
Seventh Circuit
(October 7, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Amended Judgment in a Civil Case in
the United States District Court for
the Southern District of Illinois
(May 13, 2019) . . . . . . . . . . . . . . App. 21
Appendix C Amended Memorandum and Order in
the United States District Court for
the Southern District of Illinois
(March 29, 2018) . . . . . . . . . . . . . App. 72
Appendix D Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the
Seventh Circuit
(November 5, 2019). . . . . . . . . . App. 132
Appendix E 15 U.S.C. § 1057 . . . . . . . . . . . . App. 134
15 U.S.C. § 1072 . . . . . . . . . . . . App. 138
15 U.S.C. § 1127 . . . . . . . . . . . . App. 138

App. 1

APPENDIX A
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Nos. 18-1998 & 18-2095
[Filed October 7, 2019]
________________________________
4SEMO.COM INCORPORATED,
)
Plaintiff-Appellee/
)
Cross-Appellant,
)
)
v.
)
)
SOUTHERN ILLINOIS STORM
)
SHELTERS, INC., INGOLDSBY
)
EXCAVATING, INC., and
)
BOB INGOLDSBY,
)
Defendants-Appellants/ )
Cross-Appellees,
)
)
and
)
)
ROMAN A. BASI and ALFRED E.
)
SANDERS JR.,
)
Intervenors/
)
Appellees.
)
________________________________ )

App. 2
Appeals from the United States District Court
for the Southern District of Illinois.
No. 3:13-cv-00297 DRH/SCW —
David R. Herndon, Judge.
____________________
ARGUED APRIL 1, 2019 — DECIDED OCTOBER 7, 2019
____________________
Before EASTERBROOK, SYKES, and BRENNAN, Circuit
Judges.
SYKES, Circuit Judge. This appeal involves a longrunning trademark dispute over ownership and misuse
of a word-mark and logo for below-ground storm
shelters. The story begins in 2005 when a Missouribased home-remodeling firm known as 4SEMO.com
Inc. began selling storm shelters manufactured by
Southern Illinois Storm Shelters, Inc. (“SISS”), an
Illinois company run by Robert “Bob” Ingoldsby and his
brother Scott. The dealership agreement gave 4SEMO
the exclusive right to sell SISS shelters in portions of
Missouri and Arkansas. As part of its marketing
campaign, 4SEMO created a wordmark—“Life Saver
Storm Shelters”— and a logo using that name, which it
affixed to the shelters. In 2006 the Ingoldsbys asked
4SEMO for permission to use these marks on shelters
marketed in southern Illinois. 4SEMO granted a
limited license for that purpose, but the Ingoldsbys
violated it by using the marks on products sold
throughout the country.
SISS sued 4SEMO for trademark infringement,
claiming prior use and ownership of the “Life Saver”
wordmark. That claim did not survive summary
judgment. 4SEMO counter-claimed for trademark

App. 3
infringement and false endorsement under the Lanham
Act, along with several state-law claims. The
counterclaims were tried to the bench, and the district
judge found for 4SEMO across the board, entered a
cease-and-desist order, and awarded more than $17
million in disgorged profits as damages. The judge
denied 4SEMO’s motion for vexatious-litigation
sanctions under 28 U.S.C. § 1927 and attorney’s fees
under the Lanham Act.
On appeal SISS does not contest the judge’s factual
findings. It argues instead that 4SEMO’s logo violates
a statute that makes it a crime to use the iconic
emblem reserved to the American Red Cross: a red
Greek cross on a white background. SISS also raises a
novel legal argument to attack 4SEMO’s ownership of
the wordmark. Finally, SISS challenges the eightfigure monetary award. In a cross-appeal 4SEMO seeks
review of the denial of § 1927 sanctions and Lanham
Act attorney’s fees.
We affirm for the most part. SISS’s statutory
argument is meritless and its legal theory challenging
4SEMO’s ownership of the marks is new on appeal and
thus is waived. We also reject the challenge to the
damages award; the judge’s conclusion that SISS
engaged in trademark infringement on a vast scale is
well supported by the evidence. Finally, although the
judge reasonably concluded that § 1927 sanctions were
not warranted, his summary denial of Lanham Act fees
cannot be squared with his factual findings and legal
conclusions on the merits of the infringement claim.
Because those findings and conclusions satisfy the Act’s
standard for recovery of attorney’s fees, we remand for

App. 4
the limited purpose of determining a reasonable fee
award.
I. Background
Ray Fielack is the president of 4SEMO, a homeremodeling company located in southeast Missouri. Bob
and Scott Ingoldsby have been manufacturing storm
shelters since 1998. They began operating under the
SISS name in 2000 and continued to do so as Ingoldsby
Excavating, Inc., since 2008.
In 2004 4SEMO purchased a storm shelter from an
SISS dealer and installed it at the direction of a
remodeling client. Pleased with the product, 4SEMO
expressed interest in buying more shelters from the
dealer and began promoting them to potential
customers. The dealer asked if 4SEMO would be
interested in simply purchasing its existing inventory
and becoming a dealer in its own right. 4SEMO agreed
to do so.
Fielack decided that a set of identifiable trademarks
would assist his company’s foray into storm-shelter
marketing and installation. In late March or early
April 2005, he settled on the name “Life Saver Storm
Shelters.” He also designed a logo: a red Greek cross on
a black background with the “Life Saver” product name
written across its horizontal bar in yellow lettering.
Fielack testified at trial that no one at 4SEMO had
seen the name or logo before.
4SEMO took possession of the former dealer’s
inventory, stenciled its new logo and wordmark onto
the shelters, and displayed them for sale. Starting in
April or early May 2005, 4SEMO’s brochures and

App. 5
signage, and the shelters it sold, featured the marks as
shown below:

On May 5 4SEMO signed a formal dealership
agreement with SISS. The contract granted 4SEMO
exclusive retail rights in a territory that included
portions of Missouri and Arkansas. It did not mention
the marks. Around this time Scott Ingoldsby visited
4SEMO to exchange one of the inventory shelters for
an updated model. He expressed no familiarity with the
marks. 4SEMO continued to market its inventory
under the “Life Saver Storm Shelters” brand.
In February 2006 the Ingoldsbys asked 4SEMO for
permission to use the “Life Saver Storm Shelters”
marks in connection with retail sales and installations
in southern Illinois. 4SEMO orally agreed to permit use
of the marks in that region on three conditions: only
shelters manufactured by the Ingoldsbys could be sold
under the marks, the Ingoldsbys would install all
branded shelters in a manner familiar to 4SEMO, and
4SEMO would maintain control over all promotional
materials bearing the marks.
The Ingoldsbys did not comply with the license
agreement. Doing business as SISS and later as
Ingoldsby Excavating, they used the marks to promote
a nationwide sales campaign, supplied other dealers

App. 6
with “Life Saver” branded shelters, and even registered
the domain name “www.lifesaverstormshelters.com.”
The Ingoldsbys planned to continue this activity until
4SEMO discovered it, at which point they would try to
buy the marks. And that’s precisely what happened. In
2011 4SEMO discovered the widespread unauthorized
use and demanded cessation. Scott Ingoldsby
immediately offered to purchase the marks. The parties
were headed toward an agreement until August 2012
when Bob Ingoldsby called off the deal. The Ingoldsbys
later terminated the dealership agreement with
4SEMO and continued to use the marks even up to the
month of trial.
In March 2013 SISS and Ingoldsby Excavating sued
4SEMO alleging trademark infringement in violation
of the Lanham Act and several state-law claims. The
suit was premised on a theory of retroactive ownership.
The Ingoldsbys claimed that SISS and one of its
licensed distributors sold shelters under the name
“Life-Saver Storm Shelters” (with a hyphen) years
before 4SEMO entered the picture. They characterized
the 2006 license agreement as covering only the logo,
not the word-mark.
4SEMO responded with multiple counterclaims
against SISS, Ingoldsby Excavating, and Bob Ingoldsby
(collectively “SISS” unless the context requires
otherwise): trademark infringement and false
endorsement under the Lanham Act, violation of the
Illinois Uniform Deceptive Practices Act, breach of
contract, unjust enrichment, and civil conspiracy. After
several years of litigation, SISS acknowledged that
most of its claims against 4SEMO lacked an adequate

App. 7
factual or legal basis. The judge dismissed most counts
of the complaint and entered summary judgment for
4SEMO on the Lanham Act claims.
In late July 2017, the judge commenced a bench
trial on the counterclaims with the case now
reconfigured to show 4SEMO as the plaintiff. Fielack
and the Ingoldsby brothers testified. 4SEMO presented
a damages expert who testified that SISS’s revenue
from its decade-long nationwide sales of “Life Saver”
branded shelters totaled approximately $17.4 million.
SISS did not contest that calculation and waived its
right to prove up offsetting costs.
Confronted with irreconcilable factual accounts, the
judge sided with 4SEMO and entered findings of fact,
conclusions of law, and a remedial award in its favor.
The judge found that the Ingoldsbys were not credible
witnesses. He found that 4SEMO owned both marks
and SISS breached a valid license, generating
consumer confusion and deception, and thus violated
the Lanham Act, 15 U.S.C. § 1125(a). The judge also
found for 4SEMO on the state-law claims.
Addressing damages, the judge found that the
decade-long infringement was willful, intentional,
egregious, even malicious. He awarded $17,371,003 in
damages under 15 U.S.C. § 1117(a) and $26,940 for the
breach of contract. He also ordered injunctive relief in
the form of a cease-and-desist order. Finally, the judge
held Bob Ingoldsby and his proprietorships jointly and
severally liable for the judgment and denied 4SEMO’s
motions for attorney’s fees under the Lanham Act and
sanctions under 28 U.S.C. § 1927.

App. 8
SISS appealed. 4SEMO filed a cross-appeal seeking
review of the denial of attorney’s fees and sanctions.
Two of SISS’s trial attorneys, Roman A. Basi and
Alfred E. Sanders Jr., intervened as cross-appellees.
After oral argument we issued an order noting a defect
in the form of the order for injunctive relief under Rule
65 of the Federal Rules of Civil Procedure. We stayed
the appeal pending entry of a proper injunction. The
district court promptly entered an amended judgment,
and the case is now ready for decision.
II. Discussion
“We review the judge’s factual findings following a
bench trial for clear error and his conclusions of law de
novo.” Ill. Liberty PAC v. Madigan, 904 F.3d 463, 469
(7th Cir. 2018). SISS has not challenged the judge’s
factual findings, so we take them as established.
A. The Red Cross Statute
SISS first argues that 4SEMO’s logo is unlawful
and thus unprotected by trademark law. This
argument rests on a federal criminal statute reserving
the emblem of a red Greek cross on a white background
for the American Red Cross:
Whoever wears or displays the sign of the Red
Cross or any insignia colored in imitation thereof
for the fraudulent purpose of inducing the belief
that he is a member of or an agent for the
American National Red Cross; or
Whoever, whether a corporation, association or
person, … uses the emblem of the Greek red cross
on a white ground, or any sign or insignia made

App. 9
or colored in imitation thereof or the words “Red
Cross” or “Geneva Cross” or any combination of
these words—
Shall be fined under this title or imprisoned not
more than six months, or both.
18 U.S.C. § 706 (emphasis added).
This language is straightforward: only the American
Red Cross may use the emblem of a red Greek cross on
a white background or an insignia “made or colored in
imitation thereof.” Id. SISS contends that 4SEMO’s
logo clearly violates § 706,1 noting that in 2012—while
the parties were negotiating a sale of the marks—the
Patent and Trademark Office rejected 4SEMO’s
application to register the logo on § 706 grounds. But
the Trademark Office explained that 4SEMO could still
secure registration if it “submit[ed] a substitute
specimen … in a color other than red.” 4SEMO
promptly filed a replacement depicting a yellow cross
with red lettering. Satisfied, the Trademark Office was
prepared to register 4SEMO’s logo but stayed its
proceedings pending the results of this litigation.
That history aside, the original version of 4SEMO’s
logo wasn’t a red Greek cross on a white background,
nor was it “made or colored in imitation” of the insignia
reserved to the American Red Cross. Id. The
Trademark Trial and Appeal Board has held that

1

The judge considered and rejected this argument in a pretrial
order, reasoning that § 706 only “prohibits someone from
fraudulently trying to hold themselves out as an agent or a
member of the American National Red Cross.”

App. 10
inclusion of additional design elements on or around a
red Greek cross can make § 706 inapplicable. For
example, in In re Health Maintenance Organizations,
Inc., 188 U.S.P.Q. (BNA) 473 (T.T.A.B. 1975), 1975 WL
20855, a trademark applicant submitted a dark Greek
cross with a caduceus—the familiar medical symbol
featuring two serpents entwined around a winged rod.
The Appeal Board framed the inquiry as “whether [the]
mark so resembles the Greek red cross that such mark
can be said to consist of matter which may disparage or
falsely suggest a connection with the” protected symbol.
Id. at 473, at *1. On this understanding, the applicant’s
submission did not violate the statute, in part because
“the representation of the caduceus … remove[d] any
hint or suggestion of resemblance.” Id.
The Appeal Board’s logic is consistent with the
statutory text, which prohibits logos “made or colored
in imitation” of the familiar Red Cross insignia. We
find the Board’s analysis persuasive. The logo at the
center of this dispute is a red Greek cross on a black
background emblazoned with “Life Saver Storm
Shelters” in large, yellow letters. The words fill nearly
the entire horizontal bar of the cross, making it
predominantly yellow. These different design elements
provide what the caduceus provided in Health
Maintenance Organizations: an obvious distinguishing
feature from the traditional icon of the American Red
Cross. 4SEMO’s logo thus is not “made or colored in
imitation” of the Red Cross symbol, so § 706 does not
bar 4SEMO’s commercial use or negate the judge’s
finding of trademark infringement.

App. 11
B. Ownership of the Wordmark
In the district court, SISS claimed to have marketed
storm shelters under a virtually indistinguishable
name—“Life-Saver Storm Shelters” (with a
hyphen)—years before the relationship with 4SEMO.
The judge rejected that prior-use theory, and his
factual findings on that point are unchallenged on
appeal.
Instead, SISS offers a new legal theory derived from
observations in a widely cited trademark treatise.
Discussing trademark disputes between manufacturers
and their distributors, the McCarthy trademark
treatise observes: “In the absence of an agreement
defining ownership,” there is a “rebuttable presumption
that the manufacturer of [the] goods is the owner of the
trademark of those goods.” 2 J. THOMAS MCCARTHY,
MCCARTHY ON TRADEMARKS AND UNFAIR COMPETITION
§ 16:48 (5th ed. 2018). The treatise goes on to describe
a six-factor balancing test to determine whether the
presumption has been rebutted. Id.
SISS argues that Professor McCarthy’s factors
weigh in its favor. This argument is new on appeal and
thus is waived. See, e.g., In re Veluchamy, 879 F.3d
808, 821 (7th Cir. 2018). Still, we note for completeness
that Professor McCarthy’s “test” might be relevant
“where the initial allocation of trademark rights is in
dispute.” TMT N. Am., Inc. v. Magic Touch GmbH, 124
F.3d 876, 884 n.4 (7th Cir. 1997). But where, as here,
a party’s initial ownership of a mark has been
conclusively established as a factual matter, the owner
may “lose its rights by assignment or by abandonment,
but not by some nebulous balancing test.” Id.

App. 12
Accordingly, the presumption and balancing test
announced in the McCarthy treatise cannot displace
the judge’s unchallenged factual findings that 4SEMO
created the marks, used them in commerce, and
granted the Ingoldsbys a tightly limited license to use
them. Indeed, if SISS already owned the wordmark,
why would the Ingoldsbys have asked for a license to
use it? Whatever force Professor McCarthy’s balancing
test may have in other cases, it has no effect here.
C. Disgorged Profits
We turn now to a series of challenges to 4SEMO’s
$17.4 million judgment. SISS argues that the award
constitutes a windfall for 4SEMO, imposes an
inequitable penalty, and unlawfully contains profits
earned in markets outside of 4SEMO’s contractual
dealership range.
Under the Lanham Act’s damages provision, the
district court may award a prevailing plaintiff “(1) [the]
defendant’s profits, (2) any damages sustained by the
plaintiff, and (3) the costs of the action.” 15 U.S.C.
§ 1117(a). The statute installs a burden-shifting
framework: “In assessing profits the plaintiff shall be
required to prove defendant’s sales only; defendant
must prove all elements of cost or deduction claimed.”
Id. 4SEMO took the first step. Its expert calculated
approximately $17.4 million in revenue from
unlicensed sales of “Life Saver” branded shelters. And
before trial SISS affirmatively waived its right to prove
up any deductions. Nor did SISS object to the expert’s
calculations or introduce countervailing evidence at
trial.

App. 13
These litigation decisions are fatal to SISS’s
appellate attacks on the damages award. Because SISS
effectively conceded the expert’s calculation at trial, its
attack on the judgment as a windfall comes too late.
SISS points to language in § 1117(a) saying that profits
are awarded “subject to the principles of equity.” Id.
True enough, but a “trial court’s primary function is to
make violations of the Lanham Act unprofitable to the
infringing party.” Otis Clapp & Son, Inc. v. Filmore
Vitamin Co., 754 F.2d 738, 744 (7th Cir. 1985).
Moreover, “[§] 1117 confers a great deal of discretion on
a district court in fashioning a remedy for trademark
infringement.” Bandag, Inc. v. Al Bolser’s Tire Stores,
Inc., 750 F.2d 903, 917 (Fed. Cir. 1984). The judge’s
decision to award the full $17.4 million without sua
sponte reductions was not an abuse of discretion,
especially given his finding that the infringement was
“egregious.”
SISS also argues that the judge should have
excluded profits earned in geographic areas beyond
4SEMO’s dealership territory. In other words, because
4SEMO could not sell SISS’s shelters outside of
specified counties in Missouri and Arkansas, its
trademark rights were also confined to those counties.
This argument too was not raised below and thus is
waived. It’s also meritless. The dealership agreement
did not impose geographic restrictions on 4SEMO’s
trademark rights. The agreement gave 4SEMO the
exclusive right to resell SISS products within the
identified territory, but it placed no limits on 4SEMO’s
right to sell other products—including storm shelters
manufactured by other companies—anywhere in the
United States.

App. 14
Next, SISS seeks refuge in the Tea Rose–Rectanus
defense, a common-law trademark doctrine that stems
from a pair of century-old Supreme Court cases. See
Hanover Star Milling Co. v. Metcalf, 240 U.S. 403
(1916); United Drug Co. v. Theodore Rectanus Co., 248
U.S. 90 (1918). It provides that a “senior user of an
unregistered mark cannot stop the use of a territorially
‘remote’ good faith … junior user who was first to use
the mark in that territory.” 5 MCCARTHY, supra, § 26:2.
We’ve referred to this rule as the “good faith junior
user” defense. Money Store v. Harriscorp Fin., Inc., 689
F.2d 666, 674 (7th Cir. 1982).
This argument rests on the same flawed view of the
dealership agreement, which we’ve already addressed.
Regardless, the Ingoldsbys clearly did not act in good
faith when they appropriated 4SEMO’s marks. As we
explained in Money Store, “[a] good faith junior user is
one who begins using a mark with no knowledge that
someone else is already using it.” Id.; see also Hanover
Star, 240 U.S. at 412 (explaining that the junior user
adopted the mark “in perfect good faith, with no
knowledge that anybody else was using or had used
those words”). The defense shields those who
unwittingly develop a mark that duplicates another,
not intentional counterfeiters.
The next attack on the damages award focuses not
on the judgment’s size or legal basis but on who must
pay it. The judge held SISS, Ingoldsby Excavating, and
Bob Ingoldsby jointly and severally liable for the
judgment. Bob Ingoldsby challenges the judge’s
decision to hold him personally liable, characterizing

App. 15
his brother Scott as the moving force behind any
trademark infringement.
A corporate officer is individually liable if he
“personally participates in the manufacture or sale of
the infringing article … , uses the corporation as an
instrument to carry out his own willful and deliberate
infringements, or … knowingly uses an irresponsible
corporation with the purpose of avoiding personal
liability.” Dangler v. Imperial Mach. Co., 11 F.2d 945,
947 (7th Cir. 1926). The judge’s unrebutted factual
findings defeat this argument. He found no evidence
that the Ingoldsbys respected the corporate form of
either SISS or Ingoldsby Excavating: “The record is
devoid of any corporate formation documents, articles
of incorporation, bylaws, operating agreements, board
resolutions, or any other evidence of corporate activity
in general … .” These businesses were proprietorships,
not truly independent corporate entities.
Moreover, Bob Ingoldsby’s attempt to shift blame to
his brother doesn’t stand up to scrutiny. That 4SEMO
typically interacted with SISS and Ingoldsby
Excavating through Scott does not undermine the
judge’s well-founded conclusion that Bob maintained
full operational control. And while Bob occasionally
claimed ignorance at trial, the judge specifically “found
the Ingoldsbys’ claimed inability to recall important
details of, or claimed non-involvement with, certain
matters” to be “suspect.” Even if Bob could inculpate
his brother, he faces another problem: the judge
concluded that the Ingoldsbys were each other’s agents
as well as participants in a civil conspiracy. Any act or

App. 16
omission by Scott must be imputed to Bob, so the
latter’s fraternal finger-pointing is ultimately pointless.
D. Sanctions and Fees
4SEMO’s cross-appeal challenges the judge’s refusal
to award attorney’s fees under the Lanham Act’s feeshifting provision or sanctions under 28 U.S.C. § 1927.
We take the latter argument first. Under § 1927, “[a]ny
attorney … who so multiplies the proceedings in any
case unreasonably and vexatiously may be required by
the court to satisfy personally the excess costs,
expenses, and attorneys’ fees reasonably incurred
because of such conduct.” 4SEMO’s sanctions claim is
directed at intervenors Basi and Sanders. We review
for abuse of discretion. Fox Valley Const. Workers
Fringe Benefit Funds v. Pride of Fox Masonry & Expert
Restorations, 140 F.3d 661, 666 (7th Cir. 1998).
Vexatious-litigation sanctions under § 1927 require
a showing of either subjective or objective bad faith.
Dal Pozzo v. Basic Mach. Co., 463 F.3d 609, 614 (7th
Cir. 2006). 4SEMO focuses on the latter. Objective bad
faith consists of reckless indifference to the law:
“pursu[ing] a path that a reasonably careful attorney
would have known, after appropriate inquiry, to be
unsound.” Riddle & Assocs., P.C. v. Kelly, 414 F.3d 832,
835 (7th Cir. 2005) (quotation marks omitted). 4SEMO
insists that Basi and Sanders engaged in vexatious
behavior and made objectively unreasonable legal
arguments. The district court disagreed. Though he
ruled summarily, we see no abuse of discretion. Basi
and Sanders were entitled to zealously represent their
clients, and although SISS’s claims were meritless,
we’re hard-pressed to find reckless indifference.

App. 17
The claim for attorney’s fees is another story. The
Lanham Act permits district courts “in exceptional
cases” to “award reasonable attorney fees to the
prevailing party.” § 1117(a). Interpreting identical
language in the Patent Act, the Supreme Court held
“that an ‘exceptional’ case is simply one that stands out
from others with respect to the substantive strength of
a party’s litigating position … or the unreasonable
manner in which the case was litigated.” Octane
Fitness, LLC v. ICON Health & Fitness, Inc., 572 U.S.
545, 554 (2014). Again we review for abuse of
discretion. Fin. Inv. Co. (Berm.) v. Geberit AG, 165 F.3d
526, 530 (7th Cir. 1998).
Based on our reading of the judge’s findings and
conclusions, this was an exceptional case. The judge
found that the Ingoldsbys engaged in a vast
infringement campaign and indeed planned in advance
to offer to buy the marks only “if and when 4SEMO
discovered the[ir] improper use and complained.” He
found their conduct “willful, egregious[,] and
intentional.” Likewise, he found that they “acted in bad
faith, intentionally, willfully[,] and maliciously[;] [and]
have refused to cease the infringing activity[] and …
caused 4SEMO unnecessary trouble and expense.”
Then, in the next sentence, the judge summarily denied
4SEMO’s motion for Lanham Act attorney’s fees.
Respectfully, that conclusion simply doesn’t follow from
the factual findings of willfulness, maliciousness, and
bad faith.
We therefore REVERSE the denial of attorney’s fees
and REMAND for entry of a reasonable fee award under

App. 18
§ 1117(a). In all other respects, the judgment below is
AFFIRMED.

App. 19
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley Dirksen
United States Courthouse
Room 2722 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Nos. 18-1998 and 18-2095
[Filed October 7, 2019]
Before:

FRANK H. EASTERBROOK, Circuit Judge
DIANE S. SYKES, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
________________________________
4SEMO.COM INCORPORATED, )
Plaintiff - Appellee
)
Cross - Appellant
)
)
v.
)
)
SOUTHERN ILLINOIS STORM )
SHELTERS, INCORPORATED,
)
INGOLDSBY EXCAVATING,
)
INC., and BOB INGOLDSBY,
)
Defendants - Appellants
)
Cross - Appellees
)
)
and
)
)
ROMAN A. BASI and ALFRED E. )

App. 20
SANDERS JR.,
)
Intervenors - Appellees
)
________________________________ )
Originating Case Information:
District Court No: 3:13-cv-00297-DRH-SCW
Southern District of Illinois
District Judge David R. Herndon
FINAL JUDGMENT
We therefore REVERSE the denial of attorney’s fees
and REMAND for entry of a reasonable fee award
under § 1117(a). In all other respects, the judgment
below is AFFIRMED. The above is in accordance with
the decision of this court entered on this date.
form name: c7_FinalJudgment(form ID: 132)

App. 21

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
Case No. 13-CV-297-NJR
[Filed May 13, 2019]
________________________________
4SEMO.COM, INC.,
)
)
Plaintiff,
)
)
vs.
)
)
SOUTHERN ILLINOIS STORM )
SHELTERS, INC., et al.,
)
Defendants.
)
________________________________ )
AMENDED JUDGMENT IN A CIVIL CASE
DECISION BY THE COURT. This matter is
before the Court following a bench trial held during the
week of July 31, 2017 before the Honorable David R.
Herndon.
IT IS ORDERED AND ADJUDGED:
1.

Pursuant to the Order entered February 20,
2015 (Doc. 123), 4SEMO.Com, Inc.’s motion to
strike Southern Illinois Storm Shelters, Inc.’s,
claim for monetary damages is GRANTED;

App. 22
2.

Pursuant to the Memorandum and Order
entered August 11, 2015 (Doc. 149), Counts 3
through 7 of Southern Illinois Storm Shelters,
Inc.’s, amended complaint are DISMISSED
with prejudice;

3.

Pursuant to the Memorandum and Order
entered August 26, 2015 (Doc. 150),
4SEMO.Com, Inc.’s motion for summary
judgment as to Counts 1 and 2 of Southern
Illinois Storm Shelters, Inc.’s, amended
complaint is GRANTED; and,

4.

Pursuant to the Amended Memorandum and
Order entered on March 29, 2018 (Doc. 277), the
Court finds in favor of 4SEMO.Com, Inc., and
against Robert Ingoldsby, Southern Illinois
Storm Shelters, Inc., and Ingoldsby Excavating,
Inc., jointly and severally, and awards
4SEMO.Com, Inc. permanent injunctive relief as
more specifically set forth in paragraphs 5 and
6 below, and total monetary damages of
$17,397,943.00, and costs pursuant to 28 U.S.C.
§1920.

5.

The following permanent injunctive relief is
hereby granted due to the Court’s findings of
fact and conclusions of law, previously set forth
in the aforementioned Memorandum and Order
entered March 29, 2019 (Doc. 277).1

1

The following Findings of Fact and Conclusions of Law are set out
in this Amended Judgment because they form the basis of, and
reasons for, the issuance of the Permanent Injunction. They do not
constitute all of the Court’s previously entered Findings of Fact

App. 23
FINDINGS OF FACT:
The Court finds the following facts to have been
established at trial:
1.

4SEMO is a Missouri corporation, in good
standing, which at all times relevant hereto,
has operated, sold products and services, and
advertised throughout the Southeast
Missouri region and in parts of Illinois and
Arkansas, and has operated a website which
reaches a national audience.

2.

Defendant Robert Ingoldsby and his brother
Scott have been engaged in the business of
manufacturing and selling storm shelters,
together, since 1998.

3.

Storm shelters are below or above ground
bunkers which are used to protect people or
property from severe weather such as

and Conclusions of Law as set out in the Amended Memorandum
and Order, as those not contributing to the reasons for the
issuance of the injunction are not necessary to be included in, or
restated in, this Amended Judgment. The Court does not in any
manner withdraw, alter or change any Findings of Fact or
Conclusions of Law set forth in the Amended Memorandum and
Order which are not restated in this Amended Judgment, and they
remain findings and conclusions of this Court and continue to
support, along with those stated in this Amended Judgment, the
Court’s damage awards which are awarded to Plaintiff in this
Amended Judgment. Those Findings of Fact and Conclusions of
Law set forth below are numbered sequentially, as opposed to the
paragraph numbers they bore in the Amended Memorandum and
Order.

App. 24
tornadoes, into which people go to get out of
the storm.
4.

The Ingoldsby brothers utilized no purported
entity structures to conduct their storm
shelter operations until the year 2000, and
admit that, at least up to that point, they
considered the business to be that of
Defendant Robert Ingoldsby individually.

5.

Defendant Southern Illinois Storm Shelters,
Inc. (“SISS”) was established by Robert
Ingoldsby in the year 2000, and Defendant
Ingoldsby Excavating, Inc. (“Ingoldsby
Excavating”) was established in 2008.

6.

Defendant Robert Ingoldsby controls and was
the person who was responsible for, and
made, the decisions for and under the name
of Southern Illinois Storm Shelters, Inc.

7.

Defendant Robert Ingoldsby controls and was
the person responsible for, and made the
decisions that were made for and under the
name of Ingoldsby Excavating.

8.

Robert Ingoldsby, SISS and Ingoldsby
Excavating all operate out of the same
location, using the same phone numbers,
same quick books software and computers,
and cell phones, and use the same personnel.
They were all represented in this action by
the same lawyers.

9.

Ingoldsby Excavating was only established in
2008 for sales tax reasons.

App. 25
10.

Defendant Robert Ingoldsby entrusted most
or all of the face-to-face dealings between the
Defendants and 4SEMO that are the subject
of the instant dispute to his brother Scott
Ingoldsby and Scott Ingoldsby had full
authority to act on behalf of all Defendants.

11.

Scott Ingoldsby operated at all times relevant
to this action simultaneously under both the
SISS and Ingoldsby Excavating company
names, but never tracked what time he spent
for which company. He merely knew in his
own head which company he was working for
on any particular task.

12.

At all times relevant hereto, each of the
actions of Scott Ingoldsby were taken for, on
behalf of, and as the actions of Defendants
SISS, Robert Ingoldsby, and Ingoldsby
Excavating if in fact, the Defendants were or
are separate entities.

13.

Scott Ingoldsby never distinguished between
companies or even talked in terms of
company, when dealing with 4SEMO.

14.

Even after this case was in litigation,
Defendants ran at least one advertisement
claiming to be both the manufacturer of
storm shelters, and the company which
consumers should call to purchase shelters
for installation in Southern Illinois, without
distinguishing between separate companies.

15.

The record is devoid of any corporate
formation documents, a rt i cl es of

App. 26
incorporation, bylaws, operating agreements,
board resolutions, or any other evidence of
corporate activity in general, and
importantly, is even devoid of any corporate
resolutions, authorizations, or agreements
concerning any of the Defendants’ dealings
with 4SEMO or relating to the use of the
LifeSavers Storm Shelters trademark here in
issue.
16.

The only intercompany document is a
purported dealer agreement between
Ingoldsby Excavating and SISS.

17.

In 2005, 4SEMO was in the business of home
renovation and remodeling, among other
things.

18.

In the course of that business, in 2004,
4 SEMO bought a storm shel ter
manufactured by Defendants from a
dealership owned and operated by Michelle
Masters and Barry Aycock, husband and wife
(hereafter referred to as the “Aycocks”).

19.

4SEMO purchased the Aycocks shelter at the
request of one of its customers for whom
4SEMO was doing remodeling work, and
resold it to that customer as part of its
remodeling work for the customer.

20.

As a result of that experience, 4SEMO
believed there was a market for the sale and
installation of storm shelters, and spoke with
the Aycocks about a plan pursuant to which
4SEMO would add the sale and installation

App. 27
of shelters to its products, product lines and
services, and would purchase any storm
shelters it sold through the Aycocks’s
dealership.
21.

The Aycocks agreed to support that approach
and provided 4SEMO with some literature on
the storm shelters they carried, which
referred to the storm shelters using the
Southern Illinois Storm Shelters name.

22.

4SEMO added storm shelters to its business
plan and began marketing storm shelter
sales and installation services as an
additional product/service line.

23.

In marketing storm shelters during this
period, 4SEMO initially utilized the
marketing materials received from the
Aycocks.

24.

4SEMO then created its own brochures
which used the initials S.I.S.S. to refer to the
Defendants as manufacturers, Plaintiff’s
Trial Exhibit 10, to avoid the use of the
“Southern Illinois” moniker; 4SEMO did so
because it believed the use of the Illinois
reference might be confusing with respect to
attempted sales in Missouri and Arkansas
and because of its own Missouri location.

25.

Shortly after 4SEMO began its storm shelter
marketing efforts, the Aycocks approached
4SEMO and asked if 4SEMO would be
interested in simply taking over the storm

App. 28
shelter dealership and becoming a direct
dealer of the Defendants’ storm shelters.
26.

4SEMO checked the Defendants’ website to
determine what other dealers would be in
4SEMO’s vicinity if they were to acquire the
dealership and go forward.

27.

4SEMO agreed to take over the storm shelter
dealership from the Aycocks and the Aycocks
informed the Defendants of their and
4SEMO’s desire to transfer the Aycocks’s
dealership to 4SEMO.

28.

The Defendants agreed to enlist 4SEMO as a
dealer of its storm shelters in place of the
Aycocks, so long as the Aycocks formally
agreed to the change.

29.

In order to release their dealership rights to
4SEMO, the Aycocks merely requested that
4SEMO purchase the two storm shelters
which the Aycocks had in inventory (the
“Existing Inventory Shelters”) and 4SEMO
agreed to do so.

30.

The Aycocks and 4SEMO agreed on the
terms on which the Aycocks would release
their dealership rights to 4SEMO in mid to
late April of 2005; When they reached that
understanding the Aycocks agreed that
4SEMO could take possession of the two
Existing Inventory Shelters immediately, to
use as display shelters, while the parties
worked out formal agreements.

App. 29
31.

At that time, in light of 4SEMO’s movement
towards becoming a direct dealer of storm
shelters, 4SEMO’s president Ray Fielack
decided it would be beneficial for 4SEMO to
have its own trademark to identify it as the
source of storm shelters it sold, to avoid any
confusion from the Southern Illinois Storm
Shelters name, and to generate and embody
good will for 4SEMO.

32.

Mr. Fielack, informed the rest of the 4SEMO
staff of the company’s impending acquisition
of the storm shelter dealership and his desire
to develop a trademark for 4SEMO to use in
connection with its retail sale and
installation of storm shelters, and initiated a
brainstorming session among the staff to
come up with an appropriate mark.

33.

As a result of those discussions, Mr. Fielack
ultimately selected a name that he himself
had come up with, LifeSaver Storm Shelters,
to be used by 4SEMO as its mark in
conjunction with its retail sales and
installations of storm shelters.

34.

Mr. Fielack and a 4SEMO employee, Ross
Taylor, then came up with an associated logo
mark, comprised of a Greek Cross with the
Life Saver Storm Shelters phrase imbedded
in its horizontal arms.

35.

At the time Mr. Fielack came up with the
Life Saver Storm Shelters name and caused
4SEMO to adopt the Life Saver Storm

App. 30
Shelters name and related logo as
trademarks of 4SEMO, Mr. Fielack had
never heard of the name being used in
conjunction with storm shelters before, had
never seen the name used in that context
before, had never heard of any person or
company that used it in connection with
storm shelters before, and had never seen it
used on any marketing materials or other
document relating to storm shelters before.
36.

The Defendants’ marketing materials that
were received by Plaintiff from the Aycocks
in early 2005 did not include or reference a
Life Saver Storm Shelter name or mark.

37.

When Mr. Fielack checked the Defendants’
website when he was thinking of causing
4SEMO to acquire the dealership from
Michelle and Barry Aycock, there was no
reference to Life Saver Storm Shelters in any
manner or for any purpose on the
Defendants’ website.

38.

When Mr. Fielack suggested the Life Saver
Storm Shelter mark to 4SEMO staff, nobody
indicated they had heard or seen it before.

39.

No one suggested the Life Saver Storm
Shelters name to Mr. Fielack.

40.

Mr. Fielack came up with the Life Saver
Storm Shelters mark on his own, as a result
of his own marketing ideas and though
processes.

App. 31
41.

4SEMO checked the federal trademark office
to see if anyone had registered a similar
trademark and no one had done so.

42.

4SEMO did a general internet search to see
if anyone was using a similar name in
connection with storm shelters and found no
indication that anyone was doing so.

43.

Neither Scott Ingoldsby nor any other
representative of Defendants ever mentioned
the Life Saver Storm Shelter name prior to
learning of 4SEMO’s adoption of the mark
and seeing 4SEMO’s use of it. When
Defendants later first learned of 4SEMO’s
adoption of the Life Saver Storm Shelters
mark, they did not indicate to 4SEMO that
the Life Saver Storm Shelters mark or any
similar mark had been used before by
themselves, or anyone else, or that they had
heard of the use of the mark or had ever seen
it used before.

44.

The Defendants acknowledge they did not
conceive the Life Saver Storm Shelters mark
or the Greek Cross logo with the name
imbedded in it.

45.

4SEMO took possession of the Existing
Inventory Shelters from the Aycocks and
constructed a raised viewing deck to use with
them, in mid to late April 2005.

46.

The Existing Inventory Shelters, and the
other shelters 4SEMO would thereafter sell,
were and are designed so that the entrances

App. 32
are at ground level once the shelters are
sunk into the ground.
47.

Before installation of the shelters, while a
shelter is sitting on the ground rather than
being sunk into it, the shelter’s opening is
substantially above ground level and a
person cannot get into them or look into
them.

48.

The viewing deck constructed by 4SEMO was
constructed to allow potential purchasers to
look into an uninstalled shelter so as to view
the interior of the shelter; It was constructed
such that the deck height was just above the
top of the storm shelters being displayed
while they were sitting on the ground; The
shelters were nosed up against the deck, so
that persons standing on the deck could look
down into them and see the inside.

49.

The shelters were not enclosed within the
deck, but merely nosed up against it, and the
exterior of the shelters were still visible.

50.

4SEMO used a stencil to paint its Life Saver
Storm Shelters trademark, its related Greek
Cross logo, and its phone number onto the
Initial Inventory Shelters when they
obtained them from the Aycocks in April
2005.

51.

4SEMO used its viewing deck in connection
with the Existing Inventory Shelters
beginning in April of 2005, and nosed them
against the deck such that the Life Saver

App. 33
Storm Shelters name and Logo (and
4SEMO’s phone number) painted on the
Existing Inventory Shelters remained visible
to the public.
52.

4SEMO also placed signage on the viewing
deck which utilized the Life Saver Storm
Shelters mark and the Greek Cross logo
mark to reference the shelters that could be
purchased from 4SEMO.

53.

The signage was fastened to the road side of
the deck, and had the name and the Greek
Cross logo visible to passersby.

54.

4SEMO also began using the Life Saver
Storm Shelters mark and related Greek
Cross logo mark in brochures it created and
printed in-house in April of 2005, after
acquiring the Initial Inventory Shelters.

55.

Plaintiff’s Exhibit 8 is a brochure created by
4SEMO as revised in late May of 2005. In the
brochure, 4SEMO utilized the Life Saver
Storm Shelters name and Greek Cross logo,
claimed trademark rights and also claimed to
use Life Saver Storm Shelters as a d/b/a of
the company.

56.

Plaintiff’s Exhibit 8 was a revised version of
the brochure using the marks originally
created by 4SEMO in April of 2005; the
original version had the same general
content as Plaintiff’s Exhibit 8.

App. 34
57.

In the course of the April 2005 discussions
with the Aycocks and Defendants regarding
4SEMO’s takeover of the Aycocks’s
dealership, 4SEMO learned that the smaller
of the two Existing Inventory Shelters it was
purchasing from the Aycocks was actually a
discontinued model, and the Defendants
agreed that, the Defendants would swap out
the discontinued shelter for the newer
version of the same size model.

58.

On May 5, 2005, the Defendants and 4SEMO
formally signed and entered into the Dealer
Agreement with Defendants pursuant to
which 4SEMO became a direct dealer of
storm shelters manufactured by Defendants;
a true and accurate copy of the agreement
between the parties is reflected in trial
exhibits Plaintiff’s Exhibit 3 and Defendants’
Exhibit 25 (The “Dealer Agreement.”)

59.

On May 19, 2005, 4SEMO and the Aycocks
formally signed and entered into their
agreement pursuant to which the Aycocks
released any rights under their prior Dealer
Agreement with Defendants to 4SEMO; on
that date 4SEMO also paid the Aycocks for
the Initial Inventory Shelters which were
already in 4SEMO’s possession. A true and
accurate copy of the agreement between
4SEMO and the Aycocks is also a part of
Plaintiff’s Exhibit 3.

60.

Following the signing of the Dealer
Agreement with Defendants, 4SEMO

App. 35
continued actively marketing the sale of
storm shelters using its Life Saver Storm
Shelters mark and Greek Cross logo mark;
4SEMO applied the marks to the storm
shelters themselves by stenciling the name,
logo and its phone number onto shelters it
sold, used the name and logo in advertising,
including yellow pages advertising, used
them in its brochures and at its facility, and
used them in use and care manuals and
installation manuals for the shelters it
provided to purchasers of the shelters it sold.
61.

In early May 2005, shortly after 4SEMO and
the Defendants signed the Dealer
Agreement, Scott Ingoldsby visited 4SEMO’s
facilities on behalf of Defendants to exchange
a newer version shelter for the smaller of the
Existing Inventory Shelters, as 4SEMO and
the Defendants had previously agreed.

62.

When he did so, Ray Fielack, 4SEMO’s
president and principal, showed Scott
Ingoldsby the Life Saver Storm Shelters and
Greek Cross logo marks 4SEMO had adopted
and the brochures that they had created
using them; 4SEMO also explained to Scott
Ingoldsby, how 4SEMO was marketing and
selling the storm shelters it sold, including
those purchased from SISS, under its
trademarks and pursuant to a business,
marketing and advertising plan.

63.

At that time Scott Ingoldsby saw 4SEMO’s
Life Saver Storm Shelters mark and the

App. 36
Greek Cross Logo stenciled onto the Initial
Inventory Storm Shelters and saw 4SEMO’s
Life Saver Storm Shelters signage on
4SEMO’s viewing deck.
64.

4SEMO then turned the smaller of the
Existing Inventory Shelters (with its Life
Saver Storm Shelters mark and logo
stenciled on it) over to Scott Ingoldsby for
transport to the Defendants, and accepted
the newer, more valuable model of shelter
which Scott Ingoldsby had brought with him
to 4SEMO.

65.

The smaller Existing Inventory Shelter was
then transported from 4SEMO’s Missouri
location to the Defendants in Illinois.

66.

4SEMO stenciled its Life Saver Storm
Shelters mark and the Greek Cross logo on
the new shelter it obtained from Defendants
(the “Exchange Shelter”), and placed the
Exchange Shelter in 4SEMO’s viewing deck
alongside the remaining Initial Inventory
Shelter, so that potential customers could
view the shelters, and continued marketing
the sale of storm shelters under its Life
Saver Storm Shelters name and Greek Cross
logo.

67.

In November of 2005, two individuals named
Mr. and Mrs. Corum visited the 4SEMO
facility, viewed the remaining Initial
Inventory Shelter and the Exchange Shelter,
the Life Saver Storm Shelters signage and

App. 37
4SEMO’s brochures which utilized the Life
Saver Storm Shelters mark and the Greek
Cross Logo mark and purchased the
remaining Initial Inventory Shelter from
4SEMO. The Corums paid for the shelter at
that time, but set up delivery of the shelter
for a future date.
68.

In December 2005, 4SEMO transported the
stenciled Existing Inventory Shelter the
couple had purchased to them, and caused
the same to be installed with the assistance
of Scott Ingoldsby for the Defendants.

69.

4SEMO continued to consistently market and
sell storm shelters under and using its Life
Saver Storm Shelters trademark and Greek
Cross logo, and has consistently used its
marks in connection with its sales and
installations ever since.

70.

4SEMO has made regular and consistent
sales of storm shelters since May of 2005,
and has installed the same, and each of those
regular and consistent sales and installations
were made under and in conjunction with
4SEMO’s use of the Life Saver Storm
Shelters mark.

71.

4SEMO has been using the Life Saver Storm
Shelters name and Greek Cross logo as its
trademarks consistently and systematically
since mid-April of 2005, used them in
conjunction with the exchange of the Initial
Inventory Shelter with Defendants in May of

App. 38
2005, with the November 2005 arms-length
storm shelter sale noted above, and with
every storm shelter sale and installation
since.
72.

4SEMO has continuously used its Life Saver
Storm Shelters trademark to reflect it as the
retail source of the storm shelters it has sold
and installed, despite two changes of storm
shelter manufacturers/suppliers.

73.

4SEMO has continued to utilize the
LifeSaver Storm Shelters mark in all
advertising materials, brochures, care
manuals, and by painting it via stencil or
decal sticker on all storm shelters it sells,
regardless of manufacturer.

74.

In February 2006, Defendants, acting
through Scott Ingoldsby, requested
permission for Defendants to use 4SEMO’s
Life Saver Storm Shelters trademark and
Greek Cross logo mark in conjunction with
retail sales and installations of storm
shelters by Defendants in Southern Illinois.

75.

The request was made for and on behalf of all
Defendants by Scott Ingoldsby, and was not
made on behalf of any particular Defendant,
and no company names were used.

76.

Defendants only requested the right to use
4SEMO’s Life Saver Storm Shelters mark
and related logo for this limited use.

App. 39
77.

After some consideration, 4SEMO agreed
that Defendants could use 4SEMO’s Life
Saver Storm Shelters trademark and Greek
Cross logo mark in conjunction with retail
sales and installations of storm shelters by
Defendants in Southern Illinois, provided
that they were storm shelters Defendants
manufactured, that they were installed in
the manner with which 4SEMO was familiar,
and that 4SEMO approved and controlled the
printing of all marketing materials
containing its mark which Defendants would
use in such fashion. These were the only
rights to use 4SEMO’s Life Saver Storm
Shelters mark and Greek Cross logo mark
that were granted to Defendants.

78.

The Court specifically finds that the
testimony of Ray Fielack and the former
4SEMO employees that such a limited use
agreement was all that was requested and all
that was granted is credible, and that the
attempts of the Defendants to characterize
the agreement as something other than this
limited use agreement are not credible. The
Court also specifically finds the Defendants’
contention that the agreement was solely for
the rights to use the Greek Cross logo and
not for the Life Saver Storm Shelters name
itself is not credible and not believable.

79.

Notwithstanding the limited purposes for
which 4SEMO granted Defendants the right
to use the Life Saver Storm Shelters name

App. 40
and Greek Cross logo, from the outset of
Defendants’ acquisition of brochures
containing those marks from 4SEMO in
February 2006 and continuing up through
the trial of this cause, the Defendants used
the Plaintiff’s trademarks in ways beyond
the limited use that was authorized,
including the use of the same in connection
with the marketing and sale of their shelters
to dealers nationwide for resale, and in
connection with direct sales and installations
outside of Southern Illinois.
80.

The Defendants also advertised and/or
marketed its products using the Life Saver
Storm Shelters mark in numerous forums
and publications, including newspapers and
trade shows across various states.

81.

Defendants registered and used the domain
name for www.lifesaverstormshelters.com.

82.

In addition to its own direct misuse of the
Marks and advertising brochures and its own
sale of products and services under the
Marks, the Defendants also intentionally
induced dealers and distributors of storm
shelters across the country to utilize
4SEMO’s Life Saver Storm Shelters of Greek
Cross logo marks and to sell goods and
services thereunder.

83.

Defendants also supplied, and continue to
supply, products to dealers and distributors
with the specific intent that they sell the

App. 41
same and related services under the Life
Saver Storm Shelters mark.
84.

All of Defendants’ sales and installations of
storm shelters have been made under and in
conjunction with 4SEMO’s Life Saver Storm
Shelters mark since February 6, 2006.

85.

4SEMO was unaware of the Defendants’ use
of the Life Saver Storm Shelters mark and
Greek Cross logo in ways and for purposes
other than the Defendants’ retail sale and
installation of storm shelters in Southern
Illinois until 2011 and did not consent to or
authorize any such use.

86.

The actions taken by Defendants of which
4SEMO were aware prior to 2011 did not
appear inconsistent with the limited use
agreement, and did not put 4SEMO on notice
of the Defendants’ unauthorized uses.

87.

Defendants’ use of the marks in excess of
their authorized manner was knowing and
intentional; before 4SEMO even discovered
the Defendants’ unauthorized use of its
marks, Robert Ingoldsby, on behalf of himself
and the company Defendants, discussed with
Scott Ingoldsby that Defendants would offer
to purchase the Life Saver Storm Shelters
name and logo from 4SEMO if and when
4SEMO discovered the improper use and
complained.

88.

In or around late 2011, 4SEMO wanted to
update its marketing materials and

App. 42
brochures; when 4SEMO’s graphic designer
went to work on the project, she did a quick
internet search for “LifeSavers Storm
Shelters” to locate 4SEMO’s website and was
surprised to see search engine returns for
several websites all around the country,
which indicated several SISS independent
dealers and distributors were using the
4SEMO Life Saver Storm Shelters mark.
89.

The graphics designer contacted 4SEMO’s
president, Ray Fielack, and alerted him of
what she had found; Ray Fielack ran a
confirming internet search, and then
immediately contacted Defendants’
representative, Scott Ingoldsby.

90.

The notification from its graphic designer in
2011 was the first notice that 4SEMO
received of the Defendants’ unauthorized use
of the Life Saver Storm Shelters and Greek
Cross logo marks.

91.

In response to the call from Ray Fielack
demanding the cessation of the improper use,
Scott Ingoldsby, on behalf of Defendants, did
not dispute the contention of unauthorized
use, but rather admitted the widespread
unauthorized use, saying that he was
supposed to have talked to 4SEMO
previously, and made the proposal to buy the
rights to the name and the logo and related
materials that he had already discussed with
Robert Ingoldsby.

App. 43
92.

The agreement pursuant to which the
Defendants would purchase the rights to the
marks and related materials was refined
over the next few days.

93.

In the course of those discussions, Scott
Ingoldsby indicated the Defendants wanted
to purchase a registered mark and requested
that 4SEMO register the Life Saver Storm
Shelters trademark and Logo prior to the
sale, and 4SEMO accordingly took steps to do
so.

94.

The agreement the parties reached in 2011
was that 4SEMO would not pursue any
claims against Defendants for their
unauthorized use of 4SEMO’s Life Saver
Storm Shelters and Greek Cross logo marks,
Defendants would buy the rights to the Life
Saver Storm Shelters and Greek Cross logo
marks and the associated website artwork,
brochure templates, and other marketing
materials from 4SEMO effective as of that
date, that the parties would determine how
the purchase price for those rights would be
determined and paid, and that Mr. Fielack or
4SEMO would work with the Defendants on
a national rollout marketing campaign for
the Defendants utilizing the marks,
including the offering of stencils and new
brochures to all of Defendants’ dealers.

95.

The parties then acted under the agreement,
with periodic discussions on methods of
pricing the rights acquisition price, and Ray

App. 44
Fielack working with Scott Ingoldsby to
produce a nationwide stencil campaign, for
use in connection with the true national roll
out as agreed.
96.

Any and all consent of 4SEMO to the
continued use of the Life Saver Storm
Shelters trademarks by the Defendants after
the Defendants’ 2011 agreement to purchase
the rights from 4SEMO was based on the
understanding that Defendants had agreed
to pay for the rights and was contingent on
the parties’ agreement being completed.

97.

In the months that followed, Defendants
continued to represent to 4SEMO that the
agreement was in place, continued to
negotiate the price to be paid, and Scott
Ingoldsby worked with Ray Fielack on the
stencil and brochure design work for the
national marketing campaign that 4SEMO
was to do under the parties’ agreement.

98.

At some point prior to July 19, 2012,
however, the Defendants, through their
attorney, learned that an uninvolved and
non-operational Missouri company had used
a phrase similar to 4SEMO’s Life Saver
Storm Shelters trademark, (the name “LifeSaver Storm Shelters,” with a hyphen), as its
company name back in 2002. The Defendants
also learned that, although out of business,
that entity had not been formally dissolved.

App. 45
99.

That company, Life-Saver Storm Shelters,
LLC (with a hyphen), had originally been
formed by an individual named John Grone
in 2002. The company and Mr. Grone are
hereafter referred to, together, the “Grone
Company.”

100.

Erroneously thinking that acquiring the
inactive Grone Company would somehow
excuse their unauthorized use of 4SEMO’s
Life Saver Storm Shelters mark and obviate
the need to pay 4SEMO to acquire the rights
the Defendants had agreed to buy, the
Defendants decided they would not honor the
agreement to purchase the marks from
4SEMO, and would instead purchase the
dormant, nonoperational Grone Company
and hold the same as a wholly owned
subsidiary of the Defendants’ purported SISS
entity.

101.

On July 19, 2012, Defendants told 4SEMO,
via a text from Scott Ingoldsby to Ray
Fielack, that Defendants were thinking of
backing out of, and not completing, their
agreement with 4SEMOto buy the Life Saver
Storm Shelters mark and associated
materials, but did not disclose their intent to
purchase the Grone Company.

102.

In an ensuing phone call, 4SEMO reminded
Scott Ingoldsby that if Defendants did not
close their purchase agreement, the
Defendants’ use of the Life Saver Storm
Shelters mark would be unauthorized. After

App. 46
a heated exchange in which Scott Ingoldsby
stated that the Defendants would then stop
selling shelters to 4SEMO so it would have
nothing to sell under its marks, the parties
calmed and Scott Ingoldsby indicated he
would have further discussions with Robert
Ingoldsby and get back to 4SEMO with the
Defendants’ decision.
103.

Scott Ingoldsby did not get back to 4SEMO,
but during the first or second week of
August, 2012 Robert Ingoldsby confirmed the
Defendants’ withdrawal from their Marks
purchase agreement in a conversation with
Ray Fielack at Defendants’ facility.

104.

Following the Defendants’ withdrawal from
their agreement to buy the marks from
4SEMO, the Defendants filed an objection to
4SEMO’s trademark application and filed a
competing registration application. Those
filings were the first time that 4SEMO
became aware of any claim that there had
been a name similar to 4SEMO’s Life Saver
Storm Shelters mark used in connection with
storm shelters prior to 4SEMO’s adoption of
the mark.

105.

Even in those 2012 USPTO filings, however,
the Defendants never claimed that 4SEMO
knew of any such prior “use” when 4SEMO
independently created and adopted its Life
Saver Storm Shelters mark and
corresponding Greek Cross logo, or that the

App. 47
Defendants had ever mentioned such a prior
company to 4SEMO.
106.

Defendants also continued to use 4SEMO’s
Life Saver Storm Shelters mark in
conjunction with all sales and installations of
storm shelters, at both wholesale and retail,
and in fact expanded their use of, and
investment in, the mark.

107.

Defendants used 4SEMO’s Life Saver Storm
Shelters mark on or in connection with its
sales and installations of each storm shelter
sold and installed since February of 2006,
both at wholesale and retail and without
regard to customer or purpose.

108.

The Defendants’ use of 4SEMO’s Life Saver
Storm Shelters mark and Greek Cross logo
mark has engendered actual confusion in the
market place.
a. After 4SEMO began selling storm
shelters manufactured by Atlas, a
different manufacturer of storm shelters,
a confused potential 4SEMO customer
came to the Defendants’ facilities in an
attempt to purchase an Atlas
manufactured shelter, due to the
Defendants’ continued use of 4SEMO’s
Life Save Storm Shelter mark.
b. Similarly, 4SEMO has and does receive
periodic inquiries, both by phone and in
person visits, from potential customers
about the Defendants’ manufactured

App. 48
shelters on an ongoing basis, rather than
f o r t hose m od e l s f r o m o t h e r
manufacturers that are actually sold by
4SEMO, due to Defendants’ continued use
of 4SEMO’s Life Saver Storm Shelters
mark.
109.

The Defendants are likely to continue using
the Life Saver Storm Shelters mark post trial
and on an ongoing basis, and to continue to
urge and purport to authorize to do so, unless
prevented from doing so.

110.

The widespread use of the 4SEMO marks by
Defendants and the Defendants’ active
encouragement of its dealers nationwide to
also use 4SEMO’s Life Saver Storm Shelters
mark, has damaged and is damaging
4SEMO, and will continue to so.

111.

The Defendants did not take any actions or
act any differently than they would have
acted if 4SEMO would have asserted its
claims against them sooner than they were
actually asserted. They have conducted
business as usual.

112.

Defendant Robert Ingoldsby was and is the
President of both SISS and Ingoldsby
Excavating and, to the extent the same were
validly operating as separate entities, made
the decision for himself and each of those
companies that they would use Plaintiff
4SEMO’s LifeSaver Storm Shelters mark in
all manners in which it was used, and to

App. 49
keep using it in such manners up through
trial.
113.

If and to the extent they were separate
entities and/or operations, SISS sold product
to Ingoldsby Excavating knowing that it
would be sold and installed under 4SEMO’s
Life Saver Storm Shelters mark, and
encouraging and inducing the sales under
the mark by Ingoldsby Excavating.

CONCLUSIONS OF LAW
The Court has made the following conclusions of law:
1.

This Court has original subject matter
jurisdiction over this action pursuant to the
Lanham Act, 15 U.S.C. §1051, et seq., 28
U.S.C. §1331 and 28 U.S.C. §1338(a)(b), and
has supplemental jurisdiction over 4SEMO’s
state law and common law claims under 28
U.S.C. §1367.

2.

Venue is proper in the Southern District of
Illinois pursuant to 28 U.S.C. §1391, 28
U.S.C. §1367 and 15 U.S.C. §1121.

3.

Upon the filing of the Defendants’ initial
Complaint in this cause, the United States
Patent and Trademark Office stayed its
review of 4SEMO’s pending trademark
registration application, to await the results
of this case; this matter thus involves
unregistered marks.

App. 50
4.

The Lanham Act protects unregistered
marks to the same extent as registered. Two
Pesos, Inc. v. Taco Cabana, Inc., 505 U.S.
763, 768, 112 S. Ct. 2753, 120 L.Ed.2d 615
(1992).

5.

The Lanham Act protects words, names,
symbols, or devices that a person or company
uses in connection with goods or services, in
commerce, “to identify and distinguish [its]
goods, including a unique product, from those
manufactured or sold by others and to
indicate the source of the goods.” 15 U.S.C.
§1125(a)(1), 1127.

6.

4SEMO established its ownership of the
phrase Life Saver Storm Shelters (the “Name
Mark”) and the Greek Cross logo with the
Name Mark imbedded in its horizontal arm
(the “Logo Mark”) by appropriation and use
of that phrase and logo to identify and
distinguish 4SEMO’s goods and services from
those of its competitors. The Name Mark and
Logo Mark. (Hereafter the Name Mark and
Logo Mark may be referred to, together, at
times as “the Marks”).

7.

The painting of the Name Mark and Logo
Mark on the Existing Inventory Shelters and
the use of the Marks on 4SEMO’s viewing
deck signage, and the dates of brochures and
other advertising materials beginning in
April 2005, may qualify as use of the Marks
in Commerce, but in any event 4SEMO first
used the Name Mark and Logo Mark in

App. 51
commerce at least as early as May 2005
when the smaller Existing Inventory Shelter,
with the Name Mark and Logo Mark painted
upon it (along with 4SEMO’s phone number)
was exchanged for a shelter of higher value
and transported from 4SEMO’s Missouri
location to the Defendants’ Illinois location in
early May of 2005. The exchange and
transfer was a bona fide transaction and was
not made simply to reserve a right to the
Marks. 15 U.S.C. §1127.
8.

Further, 4SEMO’s bona fide sale of the
larger, remaining, Existing Inventory Shelter
in November of 2005 to the Corums was also
the result of, and an example of, the use of
the Marks in commerce.

9.

4SEMO has consistently and regularly used
the Marks in commerce in conjunction with
its sales and installations of storm shelters
ever since.

10.

The Marks are each a valid trademark that
is, and has been at all times relevant to this
action, entitled to protection under 15 U.S.C.
§1125 as an unregistered trademark.

11.

The agreement reached between 4SEMO and
the Defendants in February of 2006 for the
Defendants’ limited use of the Marks
constituted a trademark licensing agreement.

12.

Defendants’ rights to the Life Saver Storm
Shelters trademark and associated Greek
Cross logo trademark came solely from, and

App. 52
were limited to, their agreement with
4SEMO.
13.

The Defendants’ use outside the scope of the
permitted use allowed under their agreement
with 4SEMO was infringement, as was their
continued use after any permission to use the
Marks was withdrawn. See Segal v. Geisha
NYC LLC, 517 F.3d 501, 506 (7th Cir. 2008);
Franchised Stores of New York, Inc. v.
Winter, 394 F.2d 664, 668 (2d Cir. 1968); see
also Masters v. UHS of Delaware, 631 F.3d
464, 473 (8th Cir. 2011); Brennans Inc. v.
Dickie Brennan & Co. Inc., 376 F.3d 356, 365
(5th Cir. 2008); Watec Co., LTD. v. Liu, 403
F.3d 645, 649 (9th Cir. 2005); McCarthy on
Trademarks and Unfair Competition § 25:30
(4th ed.).

14.

The evidence establishes that Defendants’
use of the Marks in commerce has caused
actual confusion and is likely to cause
confusion, mistake or deception as to the
source of the products bearing or sold in
conjunction with the Marks.

15.

In any event, where, as here, the alleged
infringer is using the identical language as
the claimed trademark owner, confusion is
presumed and need not be separately
established. Processed Plastic Co. v. Warner
Commc’ns, Inc., 675 F.2d 852, 857 (7th Cir.
1982).

App. 53
16.

In addition, Defendants’ allegation in
paragraph 10 of their Amended Complaint
that the use of the identical Life Saver Storm
Shelters mark by Plaintiff 4SEMO and
Defendants is likely to mislead, deceive, and
confuse consumers is a judicial admission of
such confusion, binding on Defendants. SOO
Line Railroad Company v. St. Louis
Southwestern Railway Company, 125 F.3d.
481 (7th Cir. 1997).

17.

The Defendants’ use of the Marks in
commerce on or in connection with its goods
or services was also the use of the Marks in
a manner that has deceived or is likely to
deceive as to the affiliation, connection, or
association of the Defendants with 4SEMO
and as to 4SEMO’s sponsorship, or approval
of the Defendants and their other dealers’
goods, services, and commercial activities in
violation of 15 U.S.C. §1125(a)(1).

18.

The unauthorized use by the Defendants of
4SEMO’s Name Mark and Logo Mark has
caused and/or is likely to cause confusion,
mistake or deception as to the origin,
sponsorship or association with the Marks.
Consumers are likely to believe that the
Defendants’ products or services are licensed
by, sponsored by, originated with or
associated with 4SEMO and the
unauthorized use of the Marks falsely
represents the Defendants as being
connected with the ownership of the Marks.

App. 54
19.

The Defendants have also intentionally,
willfully, knowingly and wrongfully
advertised, distributed and promoted the
Marks without the consent, express or
implied, permission, or authorization of the
4SEMO and as such, have misrepresented
the nature and relationship between 4SEMO
and the Defendants and the Defendants’
products and/or services.

20.

Further, the Defendants have failed to
properly credit 4SEMO as the true creator of
and origin of the Marks, and have
intentionally refused to identify 4SEMO as
the true creator of the Marks.

21.

By so doing, the Defendants are causing
mistake, confusion and deception as to the
true origin of products and the originality of
products, and have falsely and deceptively
advertised and promoted products.

22.

The Defendants’ unauthorized use of
4SEMO’s Life Saver Storm Shelters and
Greek Cross logo marks violated, and is
violating, 11 U.S.C. §1125.

23.

Defendants’ use of the Marks has irreparably
damaged 4SEMO and will continue to
damage 4SEMO irreparably unless enjoined
by this Court, as a result of which 4SEMO is
without an adequate remedy at law.

24.

The Defendants’ use of the Marks in
manners beyond the authorized limited use
granted by 4SEMO and the continued use of

App. 55
the Marks after even that limited use grant
terminated was willful, egregious and
intentional.
25.

Further, the Court notes that the vast
amount of the revenue received by
Defendants from sales in conjunction with
their unauthorized use of the Marks,
$11,266,011 of the $17,371,003.00 of such
total revenue, was received after the
Defendants were confronted by 4SEMO and
after the Defendants agreed to buy the
Marks from 4SEMO, only to withdraw from
and refuse to follow through on that
Agreement.

26.

Defendants have acted in bad faith,
intentionally, willfully and maliciously, have
refused to cease the infringing activity, and
have caused 4SEMO unnecessary trouble
and expense.

27.

The actions of each of the Defendants, and of
Scott Ingoldsby, were taken as agent of each
of the Defendants, and constituted acts of
each Defendant.

28.

If and to the extent they were operating as
validly separate entities, SISS, Robert
Ingoldsby, and Ingoldsby Excavating
combined for the purpose of accomplishing
the unlawful purpose of using the
trademarks of 4SEMO without
authorization, and one or more of the
conspirators committed an overt tortious or

App. 56
unlawful act in furtherance of that concerted
action. The Defendants thus engaged in a
Civil Conspiracy as defined by law, rendering
them each liable for the actions of the others
taken in furtherance of such combination and
for such purpose. Fritz v. Johnston, 209 Ill.
2d 302, 317807 N.E.2d 461, 282 Ill. Dec. 837
(2004), citing Adcock v. Brakegate, Ltd., 164
Ill. 2d 54, 62-63, 645 N.E.2d 888, 206 Ill. Dec.
636 (1994).
29.

To the extent they are separate entities, SISS
is contributorily and vicariously liable for the
improper use of the Life Saver Storm
Shelters mark by Ingoldsby Excavating.

30.

Robert Ingoldsby is and was the corporate
officer who was and is the moving, active
conscious force behind SISS and Ingoldsby
Excavating’s uses of 4SEMO’s Life Saver
Storm Shelters marks and is thus
individually jointly and severally liable with
SISS and Ingoldsby Excavating for those
companies’ liability under the Lanham Act
(Counts I and III of 4SEMO’s Second
Amended Counterclaim). Dangler v. Imperial
Mach. Co., 11 F.2d 945, 947 (7th Cir. 1926).

31.

All Defendants are jointly and severally
liable for the unauthorized uses of the Marks
taken in the name of, or which lead to
revenues booked by Defendants as having
been received by SISS.

App. 57
32.

All Defendants are jointly and severally
liable for the unauthorized uses of the Marks
taken in the name of, or which lead to
revenues booked by Defendants as having
been received by Ingoldsby Excavating.

33.

The factual allegations forming the basis for
4SEMO’s Lanham Act claims and UDTPA
claims are the same and, accordingly, the
legal inquiry is the same under both statutes.
Claims for unfair competition and deceptive
business practices brought under Illinois
statutes are to be resolved according to the
principles set forth under the Lanham Act.
Web Printing Controls Co. v. Oxy-Dry Corp.,
906 F.2d 1202, 1206 n.5 (7th Cir. 1990).

34.

The Defendants have passed, and are
passing, off goods or services as those of
another, in a manner which causes likelihood
of confusion or of misunderstanding as to the
source, sponsorship, approval, or certification
of goods and causes likelihood of confusion or
of misunderstanding as to affiliation,
connection, or association with or
certification by another, in violation of the
UDTPA 815 Ill. Comp. Stat. §510/2, et seq.

35.

The unauthorized use of 4SEMO’s Marks by
Defendants on products, on advertisements,
on the internet and in connection with
services identical and/or similar to those
provided by 4SEMO causes a likelihood of
confusion and deceives the public into

App. 58
believing that 4SEMO has authorized the use
of such Marks by the Defendants.
36.

The unauthorized use of 4SEMO’s Marks, as
stated herein, on products, on
advertisements, on the internet and in
connection with services identical and/or
similar to those provided by 4SEMO causes
a likelihood of confusion and deceives the
public into believing that 4SEMO has
authorized the use of such Marks by the
Defendants.

37.

4SEMO has been and is being damaged by
such violations and has no adequate remedy
at law and the Defendants’ unlawful and
willful conduct will continue to damage
4SEMO unless enjoined by this Court.

38.

The Defendants’ actions in benefitting from
their wrongful use of the Marks were taken
in the course of and arose out of their
business, and were committed in and out of
their principal places of business in Illinois.

39.

4SEMO has no remedy at law to secure
redress for the unauthorized and
uncompensated use of its ideas, plan and
materials, and it would be unjust for
Defendants to retain the enrichment gained
from their improper use of such materials
without compensating 4SEMO.

40.

Although the Defendants asserted at trial
that they had “several defenses, including
laches and prior use” to 4SEMO’s trademark

App. 59
related claims, their affirmative defenses as
plead in their response to 4SEMO’s Second
Amended Counterclaim did not include any
claim of prior use.
41.

Further, and in any event, there was no
evidence at trial of any prior use of a phrase
similar to, or identical to, 4SEMO’s Name
Mark or Logo Mark by the Defendants. Any
and all use of a phrase similar to or identical
to the Name Mark by the Defendants prior to
4SEMO’s independent adoption of the Name
Mark and Logo mark was the use of a phrase
coined by the Grone Company, being used by
or with permission of the Grone Company. To
the extent there was any such use, that use
inured to the benefit of the Grone Company
and did not legally constitute use by
Defendants.

42.

Moreover, the use of phrase similar to the
Name Mark prior to 4SEMO’s independent
and separate adoption of the Name Mark by
or for the benefit of the Grone Company did
not constitute “prior use” of a trademark, or
any other use, of a type sufficient to
constitute a defense to the assertion of
trademark rights in the Name Mark or Logo
mark by 4SEMO as a matter of law. Zazu
Designs v. L’Oreal, S.A., 979 F.2d 499, 503
(7th Cir. 1992) (Stating “use’ meant the sales
to the public of a product with the mark
attached). 2 McCarthy on Trademarks §16:9.

App. 60
43.

Further, due to the fact that the evidence
establishes no use of any name similar to the
Name Mark by or with the permission of the
Grone Company at any time between 2005
and 2012, any trademark rights of the Grone
Company derived from any use prior to that
time would have been abandoned as a matter
of law. 15 U.S.C. §1127.

44.

Finally, and determinatively in any event,
upon Defendants’ agreement with 4SEMO to
use 4SEMO’s Life Saver Storm Shelters
trademark and associated Greek Cross logo
trademark in February of 2006, any claim of
Defendants to any independent rights to
those trademarks were lost and merged into
the license. Y.M.C.A. v. Flint Y.M.C.A., 229
U.S.P.Q. 32, 35-36 (E.D. Mich. 1985). 3
McCarthy on Trademarks and Unfair
Competition §18:47 (4th ed.) (“Under the
merger rule, if: (1) party Alpha uses the
mark and later becomes a licensee of Beta
under the same mark; and (2) the Alpha-Beta
license ends; then (3) Alpha cannot rely upon
its prior independent use as a defense
against an infringement claim brought
against it by Beta. Alpha’s prior trademark
rights were “merged” with that of Beta and
inured to the benefit of Beta”). While the 7th
Circuit has not made any express statements
on this merger theory, it has been upheld in
the 3rd (United States Jaycees v.
Philadelphia Jaycees, 639 F.2d 134, 143 (3d
Cir. 1981)), 4th (Grand Lodge Improved

App. 61
B.P.O.E. of the World v. Eureka Lodge No. 5,
114 F.2d 46, 47 (4th Cir. 1940)), and 9th
Circuits (U.S. Jaycees v. San Francisco Jr.
Chamber of Commerce, 513 F.2d 1226 (9th
Cir. 1975)).
45.

Defendants’ claim of a Laches defense was
also not established at trial. To prevail on the
affirmative defense of laches, Defendants
would have had to prove three things:
(1) that Plaintiff had actual or constructive
notice of Defendants’ use of Lifesaver Storm
Shelters (beyond the limited permission);
(2) that Plaintiff showed an unreasonable
lack of diligence in taking action as to
Defendants’ use of Lifesaver Storm Shelters;
and (3) that Defendant would be prejudiced
by allowing Plaintiff to assert its rights at
this time. Chattanoga Mfg., Inc. v. Nike, Inc.,
301 F.3d 789, 792-93 (7th Cir. 2002); Sara
Lee Corp. v. Kayser- Roth Corp., 81 F.3d 455
(4th Cir. N.C. 1996).

46.

Further, the estoppel-by-laches defense
arises only where the plaintiff has
unreasonably delayed its pursuit of a
remedy. See Brittingham v. Jenkins, 914
F.2d 447, 456 (4th Cir. Md. 1990).

47.

In addition, attempts to resolve a dispute
without resorting to a court do not constitute
unreasonable delay for determining the
applicability of the doctrine of laches. Hot
Wax, Inc. v. Turtle Wax, Inc., 191 F.3d 813,
823 (7th Cir. 1999).

App. 62
48.

The evidence at trial indicates that 4SEMO
did not wait an impermissible amount of
time under all the circumstances before
asserting its claims. Moreover, the
Defendants expressly testified that they did
not change their position in any way due to
any delay by 4SEMO before filing its claims,
and they would not have acted differently in
any manner if the claims had been asserted
sooner.

49.

Defendants did not assert or litigate any
other affirmative defenses during the trial of
this action and, accordingly, they were
waived. To the extent they were not waived,
however, they also were not established as a
matter of law.

50.

Defendants’ response to 4SEMO’s Second
Amended Counterclaim asserts a conclusory
defense of Waiver or Unclean Hands.
However, “waiver is an intentional
relinquishment of a known right,” in
Anderson v. Catholic Bishop of Chicago, 759
F.3d 645, 651 (7th Cir. 2014), and 4SEMO
never acted affirmatively to indicate that it
did not own the Marks or would not enforce
its rights. The mere fact that 4SEMO did not
discover that the Defendants had undertaken
their scheme until 2011 is insufficient.

51.

Defendants also asserted a vague defense of
“Estoppel” without explanation in their
written pleadings. Estoppel requires proof
that a trademark owner was aware of the

App. 63
infringing conduct and yet acted in a way
that induced the infringer to reasonably rely
upon such action to his detriment. Saverslak
v. Davis-Cleaver Produce Co., 606 F.2d 208,
213 (7th Cir. 1979). To assert equitable
estoppel, a defendant must show that
(1) plaintiff’s misleading communication,
with plaintiff’s knowledge of the true facts,
prompted the defendant to infer that the
plaintiff would not enforce its rights against
the defendant; (2) the defendant relied on
that conduct; and (3) the defendant would be
prejudiced if the plaintiff were allowed to
bring suit. Kennedy v. United States, 965
F.2d 413, 417 (7th Cir. 1992); See In re
Larson, 862 F.2d 112, 115 (7th Cir. 1988)
(quoting United States v. Asmar, 827 F.2d
907, 912 (3rd Cir. 1987)).
52.

To the extent the estoppel defense was
intended to be based on any perceived delay
by 4SEMO in bringing 4SEMO’s claims, the
evidence does not support such a claim. To
the extent Defendants’ defense was intended
to address their apparent contention that
4SEMO is estopped from asserting the
Defendants acted improperly by using the
Marks from 2011 until August of 2012,
during the time period in which 4SEMO was
acting in reliance on the Defendants’
agreement to purchase the Marks from
4SEMO which the Defendants later
disavowed, the defense also fails.

App. 64
53.

The agreement regarding the Defendants’
purchase of the Marks from 4SEMO
demonstrated that the Defendant understood
the trademarks belonged to the Plaintiff. The
fact that 4SEMO did not object to
Defendants’ use of the Marks in reliance on
that agreement, does not provide a defense
for the Defendants upon their failure to
honor that agreement. Rather, it is evidence
of the willful and knowing nature of their
continued infringement a good or service.
Gorenstein Enterprises, Inc. v. Quality CareUSA, Inc., 874 F.2d 431, 435 (7th Cir. 1989)

54.

The Defendants had also claimed
“acquiescence” in their written pleadings.
“Unlike laches, acquiescence implies active
consent to an infringing use of the marks and
requires a defendant to establish that (1) the
senior user actively represented it would not
assert a right or a claim; (2) the delay
between the active representation and
assertion of the right or claim was not
excusable; and (3) the delay caused the
defendant undue prejudice.” Hyson USA, Inc.
v. Hyson 2U, Ltd., 821 F.3d 935, 941 (7th Cir.
2016) (quoting SunAmerica Corp. v. Sun Life
Assur. Co. of Canada, 77 F.2d 1325, 1334
(11th Cir. 1996)). Again, the evidence does
not establish any legally effective consent, let
alone “active consent,” was given by 4SEMO
to the Defendants.

App. 65
55.

6.

Defendants also did not pursue their statute
of limitations defenses at trial—with good
reason. The evidence established that
4SEMO was unaware of the conduct
complained of until 2011. 4SEMO’s claims
were on file as of May 29, 2013, makings it
claims well within all applicable statutes of
limitation.
For the reasons articulated in paragraph 5
above, injunctive relief is hereby granted in
favor of 4SEMO.Com, Inc. on Counts I, III and V
of the Second Amended Counterclaim; Robert
Ingoldsby, Southern Illinois Storm Shelters, Inc.
and Ingoldsby Excavating, Inc., and all persons
acting by, through, at the encouragement of, or
due to any purported permission or
authorization from all or any of them, are hereby
immediately permanently enjoined from using,
attempting to use, or assisting others in the use
of the Life Saver Storm Shelters or Greek Cross
logo Marks, or any trademarks or service marks
similar thereto, including but not limited to any
trademark, service mark, trade name or other
source identifier containing the words Life Saver
Storm Shelters, any visually or phonetically
similar words or marks or any variation thereof,
in any form or fashion, and are ordered to:
1.

Immediately cease and desist from using
the Life Saver Storm Shelters mark or
any trademarks or service marks similar
thereto, including but not limited to any
trademark, service mark, trade name or

App. 66
other source identifier containing the
words Life Saver Storm Shelters, any
visually or phonetically similar words or
marks or any variation thereof, as all or
any part of any company name or domain
name,
2.

Within ten days of this Judgment, counsel
for both parties shall meet and confer for
the purpose of agreeing upon a custodian
for the materials described hereafter,
within this subparagraph. If no
agreement is reached within five days,
counsel shall advise the Court and a
custodian shall be named by the Court
and a fee determined by the Court to be
paid by the defendants herein. Once the
custodian is selected, defendants shall
deliver to said custodian within two days
any and all brochures, booklets,
pamphlets, signs, business cards, and
other documents containing any use or
references to the Life Saver Storm
Shelters or Greek Cross Logo Mark, or
any trademarks or service marks similar
thereto, including but not limited to any
trademark, service mark, trade name, or
other source identifier containing the
words Life Saver Storm Shelters, any
visually or phonetically similar words or
marks or any variations thereof. Once the
appeal period has lapsed without an
appeal or should there be an appeal that
affirms the Court’s order herein, the

App. 67
above described materials shall be
destroyed and an affidavit certifying such
destruction and the method shall be sent
to counsel for 4SEMO within 20 days of
the last deadline relative to said appeal
process.
7.

Within ten days of this Judgment, withdraw any
and all opposition to the 4SEMO trademark
application pertaining to the Life Saver Storm
Shelters and Greek Cross logo marks currently
pending before the United States Patent and
Trademark Office;

8.

Within ten days of this Judgment, withdraw any
and all applications seeking to register the Life
Saver Storm Shelters mark or any trademarks
or service marks similar thereto, including but
not limited to any trademark, service mark,
trade name or other source identifier containing
the words Life Saver Storm Shelters, any
visually or phonetically similar words or marks
or any variation thereof which are pending
before the United States Patent and Trademark
Office or any other federal, state or local agency;

9.

Within twenty-one days of this Judgment,
remove and permanently discontinue and
destroy (or cause to be removed, discontinued
and destroyed) all video, audio, auditory, images
and labels containing, using, or being comprised
of the Life Saver Storm Shelters or Greek Cross
logo Mark, or any trademarks or service marks
similar thereto, including but not limited to any
trademark, service mark, trade name or other

App. 68
source identifier containing the words Life Saver
Storm Shelters, any visually or phonetically
similar words or marks or any variation thereof,
in any form or fashion and any press release,
advertisement, television show, article or other
form of publication using or referencing the Life
Saver Storm Shelters or Greek Cross logo Mark,
or any trademarks or service marks similar
thereto, including but not limited to any
trademark, service mark, trade name or other
source identifier containing the words Life Saver
Storm Shelters, any visually or phonetically
similar words or marks or any variation thereof,
in any form or fashion;
10.

Within twenty-one days of this Judgment,
remove all references to or uses of the Life Saver
Storm Shelters or Greek Cross logo Mark, or any
trademarks or service marks similar thereto,
including but not limited to any trademark,
service mark, trade name or other source
identifier containing the words Life Saver Storm
Shelters, any visually or phonetically similar
words or marks or any variation thereof, from
any and all websites, Facebook pages or other
social media pages owned, operated, maintained
or controlled by Defendants or any person
controlled by Defendants;

11.

Within twenty-one days of this Judgment, notify
any and all persons to whom or which any
Defendants have given authorization to use, or
whom or which they have encouraged at any
time to use, the Life Saver Storm Shelters or

App. 69
Greek Cross logo Mark, or any trademarks or
service marks similar thereto, including but not
limited to any trademark, service mark, trade
name or other source identifier containing the
words Life Saver Storm Shelters, any visually or
phonetically similar words or marks or any
variation thereof , or to whom or which they
have given any brochures, documents or other
materials using any such marks, that such
persons may not use such marks in any form or
fashion, must cease any such use immediately,
and must comply with terms of this Judgment;
12.

Within twenty-one days of this Judgment,
provide a detailed list of the names, addresses,
phone numbers, and email addresses of all
persons whom or which they have authorized or
claimed to authorize to use the Life Saver Storm
Shelters or Greek Cross logo Mark, or any
trademarks or service marks similar thereto,
including but not limited to any trademark,
service mark, trade name or other source
identifier containing the words Life Saver Storm
Shelters, any visually or phonetically similar
words or marks or any variation thereof, at any
time within the three years immediately
preceding the date of this Judgment to
4SEMO.Com, Inc., by delivering such
information to 4SEMO.Com, Inc.’s counsel of
record in this matter within fifteen days of the
date of this Judgment;

13.

Within twenty-one days of this Judgment,
instruct any and all third parties to immediately

App. 70
cease using any and all uses of, or references to,
the Life Saver Storm Shelters or Greek Cross
logo Mark, or any trademarks or service marks
similar thereto, including but not limited to any
trademark, service mark, trade name or other
source identifier containing the words Life Saver
Storm Shelters, any visually or phonetically
similar words or marks or any variation thereof,
which associate the same with Robert Ingoldsby,
Southern Illinois Storm Shelters, Inc. and
Ingoldsby Excavating, Inc., or any product or
service sold or offered for sale by any of them;
14.

Within twenty-one days of the entry of this
Judgment, instruct all Dealers, distributors or
other persons who have storm shelters
manufactured by Defendants in their possession
to remove any stickers, nameplates or other
materials affixing the Life Saver Storm Shelters
or Greek Cross logo Mark, or any trademarks or
service marks similar thereto, including but not
limited to any trademark, service mark, trade
name or other source identifier containing the
words Life Saver Storm Shelters, any visually or
phonetically similar words or marks or any
variation thereof to any storm shelters or other
products purchased from Defendants that such
Dealers have not yet delivered to any of such
Dealers’ customers;

15.

Within twenty-one days of this Judgment, cancel
any and all advertisements, including any
yellow pages’ advertisements, which utilize the
Life Saver Storm Shelters or Greek Cross logo

App. 71
Mark, or any trademarks or service marks
similar thereto, including but not limited to any
trademark, service mark, trade name or other
source identifier containing the words Life Saver
Storm Shelters, any visually or phonetically
similar words or marks or any variation thereof.
And finally, Counts II, IV, VI, VII, XI and XII of
4SEMO’s Second Amended Counterclaim, which were
not submitted by 4SEMO.Com at trial, are
DISMISSED.
DATED: April 2, 2018
MARGARET M. ROBERTIE,
Clerk of Court
By:

s/ Deana Brinkley
Deputy Clerk

APPROVED: /s/Nancy J. Rosenstengel
NANCY J. ROSENSTENGEL
Chief U.S. District Judge

App. 72

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
No. 3:13-cv-00297 DRH/SCW
[Filed March 29, 2018]
________________________________
4SEMO.COM, INC.,
)
)
Plaintiff,
)
)
v.
)
)
SOUTHERN ILLINOIS STORM )
SHELTERS, INC., et al.
)
)
Defendants.
)
________________________________ )
AMENDED MEMORANDUM AND ORDER1

1

On February 9, 2018, Defendants filed a motion to alter and/or
amend the judgment (Doc. 268) and on February 14, 2018, Plaintiff
filed its response (Doc. 269). After reviewing the motion, the Court
grants in part and denies in part the motion to alter. The Court
issues this Amended Memorandum and Order to reflect the
portions of the motion that the Court grants. In light of this
Amended Memorandum and Order, the Court VACATES its
February 2, 2018 Memorandum and Order (Doc. 265) and the
February 6, 2018 Judgment (Doc. 266).

App. 73
HERNDON, District Judge:
The above-style action was tried before the Court
during the week of July 31, 2017. At the conclusion of
the evidence, the Court granted the request of the
parties to submit their closing arguments in writing.
Following the submission of such closing remarks, the
case was taken under submission on September 8,
2017. On September 26, 2017 the Court announced a
decision generally and directed Plaintiff to submit a
proposed order for the Court’s consideration. Plaintiff
complied with that order on October 17, 2017.
Now, having considered the evidence, the credibility
of the witnesses and the written closing arguments of
counsel, the Court hereby FINDS, RULES, and
ADJUDGES as follows:
I. RULINGS ON OBJECTIONS TAKEN WITH
THE CASE
During the trial of this action, Plaintiff lodged
objections to certain testimony, deposition submissions,
and other evidence, which the Court indicated it would
consider when reviewing the evidence. Having now had
the opportunity to do so, all such objections are
expressly overruled. The matters to which the
objections pertained have been considered and have
been given the weight the Court believes such evidence
is due, if any.
II. BACKGROUND
The instant action was commenced on or about
March 22, 2013, when the Now-Defendants filed a
Complaint against 4SEMO.Com, Inc. (“4SEMO”), one

App. 74
of their dealers, in the name of Southern Illinois Storm
Shelters, Inc. (“SISS”). That Complaint alleged 4SEMO
had infringed a purported “Life Saver Storm Shelters”
trademark the Defendants claimed they owned through
SISS and also raised related claims. 4SEMO answered
and counterclaimed, asserting that the “Life Saver
Storm Shelters” mark in issue was actually its mark,
and also asserting claims for a breach of its dealer
contract and other claims discussed in more detail
below.
The Complaint and Counterclaim were each
thereafter amended by their respective claimants,
4SEMO’s Counterclaims being amended twice. On
February 20, 2015 this Court struck the damage claims
that had been asserted in the name of SISS. On August
11, 2015, this Court dismissed counts 3 through 7 of
the Defendants’ SISS claims in their entirety. On
August 26, 2015, this Court granted defensive
summary judgment in favor of 4SEMO on Counts 1 and
2 of the SISS claims. Those rulings fully adjudicated
the claims that had been raised by the Now-Defendants
in their initial and amended Complaints.
The case then continued forward solely on 4SEMO’s
counterclaims, with the parties re-aligned by the Court
such that 4SEMO became denominated Plaintiff and
Robert Ingoldsby, SISS and Ingoldsby Excavating, Inc.
became denominated as Defendants.2
2

The parties were referred to as realigned throughout the trial of
this action, and are referred to as realigned in this Amended Order
and Judgment. 4SEMO is thus referred to herein as the Plaintiff,
and Robert Ingoldsby, SISS and Ingoldsby Excavating, Inc. are
referred to as the Defendants.

App. 75
At the outset of trial, 4SEMO notified the Court and
opposing counsel that it would not be submitting
Counts II, IV, VI, VII, XI or XII of its Second Amended
Counterclaim. The case thus proceeded solely on
4SEMO’s claims alleging Trademark Infringement
under the Lanham Act (Count I), False Endorsement
and Unfair Competition under the Lanham Act (Count
III), violations of the Illinois Uniform Deceptive
Practices Act (Count V), Breach of Contract (Count
VIII), Common law Unjust Enrichment (Count IX) and
Civil conspiracy (Count X).
III. CREDIBILITY OF THE WITNESSES
In large part, the resolution of the matters raised at
trial turns on the credibility of the witnesses presented.
Having had the opportunity to hear live testimony and
to observe the demeanor of the witnesses, to review the
testimony of nonparty witnesses submitted by
deposition, and having considered all other evidence of
record, the Court finds the testimony of Ray Fielack on
material matters to be highly credible and believable,
and finds material portions of the testimony of Scott
Ingoldsby and Robert Ingoldsby to lack such credibility.
The Court’s determination as to credibility is based
on the observation and perception of the witnesses who
testified at trial, including Mr. Fielack and the
Ingoldsbys. However, the Court also notes that the
deposition testimony of nonparty Taylor corroborated
Mr. Fielack’s testimony, although he had not worked
for 4SEMO for over ten years. The Court assessed
virtually no credibility to Mr. Moss’s testimony but
finds that his testimony neither helped nor hindered
the case for 4SEMO. Mr. Moss, admits in his testimony

App. 76
that his departure from 4SEMO.com, Inc., was not on
the best of terms.
In addition, the Court found the Ingoldsbys’ claimed
inability to recall important details of, or claimed noninvolvement with, certain matters suspect, especially
in light of their ability to claim certitude with respect
to other matters when helpful to their cause. In
addition, at one point Defendant Robert Ingoldsby
testified, that a Dealer Agreement between the parties
was terminated in 2012 when it appeared that
testimony would help the Defendants. He testified to
the 2012 date, however, despite the fact that the
termination attempt was made by written letter dated
in 2013, and the parties had already stipulated pretrial to the 2013 termination date.
The Defendants also contended they did not buy the
dormant, nonoperational, Grone Company (discussed
in more detail below) in an attempt to retroactively
acquire superior rights to a name similar to 4SEMO’s
trademarks that were here in issue. However, the
documents of record reflect that the acquisition was the
sole, though erroneous, basis asserted for the
Defendants’ opposition to 4SEMO’s registration
application before the United States Patent and
Trademark Office (“USPTO”) and was also the basis for
the Defendants’ initial and amended Complaints before
this Court. The record is also devoid of any business
justification for spending money for a non-operational
company in Missouri, when Defendants had already
been selling shelters directly into Missouri under the
SISS name and had set up separate purported
companies for all other aspects of their operations from

App. 77
scratch, rather than purchasing existing entities, let
alone nonoperational ones.
Similarly, throughout the trial, all evidence
indicated that the Defendants first purchased
brochures using 4SEMO’s Life Saver Storm Shelters
trademark and Greek Cross logo from 4SEMO in
February of 2006. Defendants themselves introduced a
copy of one of the brochures they obtained at that time,
which bore the copyright date of 2005, as Defendants’
Exhibit 39. Yet, despite this overwhelming evidence
and despite their own Defendants’ Exhibit 39, Scott
Ingoldsby then testified he believed that Defendants’
Exhibit 40 (which did not have the Greek Cross Logo)
was a copy of the first brochure purchased from
4SEMO by Defendants in February 2006, rather than
Defendants’ Exhibit 39, and attempted to claim that
brochures containing the Greek Cross logo were not
purchased by the Defendants from 4SEMO until 2008
or 2009. He did so without noticing that Exhibit 40
itself indicated on its face that it was actually a print
out of an Oklahoma website, printed in 2013.
Finally, the Defendants also proffered the
deposition testimony of a former dealer, Sydney
Neubert, prompting 4SEMO to submit crossdesignations from the Neubert deposition that
constituted cross examination of Mr. Neubert. Upon
review of the Neubert deposition testimony the Court
also found the testimony of Mr. Neubert and the
testimony of Scott Ingoldsby pertaining to the Neubert
testimony to lack credibility.

App. 78
IV. FINDINGS OF FACT
The Court finds the following facts to have been
established at trial3:
1.
4SEMO is a Missouri corporation, in good
standing, which at all times relevant hereto, has
operated, sold products and services, and advertised
throughout the Southeast Missouri region and in parts
of Illinois and Arkansas, and has operated a website
which reaches a national audience.
2.
Defendant Robert Ingoldsby and his brother
Scott have been engaged in the business of
manufacturing and selling storm shelters, together,
since 1998.
3.
Storm shelters are below or above ground
bunkers which are used to protect people or property
from severe weather such as tornadoes, into which
people go to get out of the storm.
4.
The Ingoldsby brothers utilized no purported
entity structures to conduct their storm shelter
operations until the year 2000, and admit that, at least
up to that point, they considered the business to be
that of Defendant Robert Ingoldsby individually.

3

For clarity of presentation, this Amended Order and Judgment
presents matters deemed to be findings of fact separate from those
deemed to be conclusions of law. However, the distinction is not
always easily made and to the extent any matter labeled a finding
of fact is more properly considered a conclusion of law, it should be
considered a conclusion of law. It should be noted that the Court
relied on all matters listed in Findings of Fact to arrive at the
conclusions and decisions in this matter.

App. 79
5.
Defendant Southern Illinois Storm Shelters,
Inc. (“SISS”) was established by Robert Ingoldsby in
the year 2000, and Defendant Ingoldsby Excavating,
Inc. (“Ingoldsby Excavating”) was established in 2008.
6.
Defendant Robert Ingoldsby controls and was
the person who was responsible for, and made, the
decisions for and under the name of Southern Illinois
Storm Shelters, Inc.
7.
Defendant Robert Ingoldsby controls and was
the person responsible for, and made the decisions that
were made for and under the name of Ingoldsby
Excavating.
8.
Robert Ingoldsby, SISS and Ingoldsby
Excavating all operate out of the same location, using
the same phone numbers, same quick books software
and computers, and cell phones, and use the same
personnel. They were all represented in this action by
the same lawyers.
9.
Ingoldsby Excavating was only established in
2008 for sales tax reasons.
10.
Defendant Robert Ingoldsby entrusted most
or all of the face-to-face dealings between the
Defendants and 4SEMO that are the subject of the
instant dispute to his brother Scott Ingoldsby and Scott
Ingoldsby had full authority to act on behalf of all
Defendants.
11.
Scott Ingoldsby operated at all times relevant
to this action simultaneously under both the SISS and
Ingoldsby Excavating company names, but never
tracked what time he spent for which company. He

App. 80
merely knew in his own head which company he was
working for on any particular task.
12.
At all times relevant hereto, each of the
actions of Scott Ingoldsby were taken for, on behalf of,
and as the actions of Defendants SISS, Robert
Ingoldsby, and Ingoldsby Excavating if in fact, the
Defendants were or are separate entities.
13.
Scott Ingoldsby never distinguished between
companies or even talked in terms of company, when
dealing with 4SEMO.
14.
Even after this case was in litigation,
Defendants ran at least one advertisement claiming to
be both the manufacturer of storm shelters, and the
company which consumers should call to purchase
shelters for installation in Southern Illinois, without
distinguishing between separate companies.
15.
The record is devoid of any corporate
formation documents, articles of incorporation, bylaws,
operating agreements, board resolutions, or any other
evidence of corporate activity in general, and
importantly, is even devoid of any corporate
resolutions, authorizations, or agreements concerning
any of the Defendants’ dealings with 4SEMO or
relating to the use of the LifeSavers Storm Shelters
trademark here in issue.
16.
The only intercompany document is a
purported dealer agreement between Ingoldsby
Excavating and SISS.
17.
In 2005, 4SEMO was in the business of home
renovation and remodeling, among other things.

App. 81
18.
In the course of that business, in 2004,
4SEMO bought a storm shelter manufactured by
Defendants from a dealership owned and operated by
Michelle Masters and Barry Aycock, husband and wife.
(hereafter referred to as the “Aycocks”).
19.
4SEMO purchased the Aycocks shelter at the
request of one of its customers for whom 4SEMO was
doing remodeling work, and resold it to that customer
as part of its remodeling work for the customer.
20.
As a result of that experience, 4SEMO
believed there was a market for the sale and
installation of storm shelters, and spoke with the
Aycocks about a plan pursuant to which 4SEMO would
add the sale and installation of shelters to its products,
product lines and services, and would purchase any
storm shelters it sold through the Aycocks’ dealership.
21.
The Aycocks agreed to support that approach
and provided 4SEMO with some literature on the
storm shelters they carried, which referred to the storm
shelters using the Southern Illinois Storm Shelters
name.
22.
4SEMO added storm shelters to its business
plan and began marketing storm shelter sales and
installation services as an additional product/service
line.
23.
In marketing storm shelters during this
period, 4SEMO initially utilized the marketing
materials received from the Aycocks.
24.
4SEMO then created its own brochures which
used the initials S.I.S.S. to refer to the Defendants as

App. 82
manufacturers, Plaintiff’s Trial Exhibit 10, to avoid the
use of the “Southern Illinois” moniker; 4SEMO did so
because it believed the use of the Illinois reference
might be confusing with respect to attempted sales in
Missouri and Arkansas and because of its own Missouri
location.
25.
Shortly after 4SEMO began its storm shelter
marketing efforts, the Aycocks approached 4SEMO and
asked if 4SEMO would be interested in simply taking
over the storm shelter dealership and becoming a direct
dealer of the Defendants’ storm shelters.
26.
4SEMO checked the Defendants’ website to
determine what other dealers would be in 4SEMO’s
vicinity if they were to acquire the dealership and go
forward.
27.
4SEMO agreed to take over the storm shelter
dealership from the Aycocks and the Aycocks informed
the Defendants of their and 4SEMO’s desire to transfer
the Aycocks’ dealership to 4SEMO.
28.
The Defendants agreed to enlist 4SEMO as a
dealer of its storm shelters in place of the Aycocks, so
long as the Aycocks formally agreed to the change.
29.
In order to release their dealership rights to
4SEMO, the Aycocks merely requested that 4SEMO
purchase the two storm shelters which the Aycocks had
in inventory (the “Existing Inventory Shelters”) and
4SEMO agreed to do so.
30.
The Aycocks and 4SEMO agreed on the terms
on which the Aycocks would release their dealership
rights to 4SEMO in mid to late April of 2005; When

App. 83
they reached that understanding the Aycocks agreed
that 4SEMO could take possession of the two Existing
Inventory Shelters immediately, to use as display
shelters, while the parties worked out formal
agreements.
31.
At that time, in light of 4SEMO’s movement
towards becoming a direct dealer of storm shelters,
4SEMO’s president Ray Fielack decided it would be
beneficial for 4SEMO to have its own trademark to
identify it as the source of storm shelters it sold, to
avoid any confusion from the Southern Illinois Storm
Shelters name, and to generate and embody good will
for 4SEMO.
32.
Mr. Fielack, informed the rest of the 4SEMO
staff of the company’s impending acquisition of the
storm shelter dealership and his desire to develop a
trademark for 4SEMO to use in connection with its
retail sale and installation of storm shelters, and
initiated a brainstorming session among the staff to
come up with an appropriate mark.
33.
As a result of those discussions, Mr. Fielack
ultimately selected a name that he himself had come
up with, LifeSaver Storm Shelters, to be used by
4SEMO as its mark in conjunction with its retail sales
and installations of storm shelters.
34.
Mr. Fielack and a 4SEMO employee, Ross
Taylor, then came up with an associated logo mark,
comprised of a Greek Cross with the Life Saver Storm
Shelters phrase imbedded in its horizontal arms.
35.
At the time Mr. Fielack came up with the Life
Saver Storm Shelters name and caused 4SEMO to

App. 84
adopt the Life Saver Storm Shelters name and related
logo as trademarks of 4SEMO, Mr. Fielack had never
heard of the name being used in conjunction with storm
shelters before, had never seen the name used in that
context before, had never heard of any person or
company that used it in connection with storm shelters
before, and had never seen it used on any marketing
materials or other document relating to storm shelters
before.
36.
The Defendants’ marketing materials that
were received by Plaintiff from the Aycocks in early
2005 did not include or reference a Life Saver Storm
Shelter name or mark.
37.
When Mr. Fielack checked the Defendants’
website when he was thinking of causing 4SEMO to
acquire the dealership from Michelle and Barry
Aycock, there was no reference to Life Saver Storm
Shelters in any manner or for any purpose on the
Defendants’ website.
38.
When Mr. Fielack suggested the Life Saver
Storm Shelter mark to 4SEMO staff, nobody indicated
they had heard or seen it before.
39.
No one suggested the Life Saver Storm
Shelters name to Mr. Fielack.
40.
Mr. Fielack came up with the Life Saver
Storm Shelters mark on his own, as a result of his own
marketing ideas and though processes.
41.
4SEMO checked the federal trademark office
to see if anyone had registered a similar trademark and
no one had done so.

App. 85
42.
4SEMO did a general internet search to see
if anyone was using a similar name in connection with
storm shelters and found no indication that anyone was
doing so.
43.
Neither Scott Ingoldsby nor any other
representative of Defendants ever mentioned the Life
Saver Storm Shelter name prior to learning of
4SEMO’s adoption of the mark and seeing 4SEMO’s
use of it. When Defendants later first learned of
4SEMO’s adoption of the Life Saver Storm Shelters
mark, they did not indicate to 4SEMO that the Life
Saver Storm Shelters mark or any similar mark had
been used before by themselves, or anyone else, or that
they had heard of the use of the mark or had ever seen
it used before.
44.
The Defendants acknowledge they did not
conceive the Life Saver Storm Shelters mark or the
Greek Cross logo with the name imbedded in it.
45.
4SEMO took possession of the Existing
Inventory Shelters from the Aycocks and constructed a
raised viewing deck to use with them, in mid to late
April 2005.
46.
The Existing Inventory Shelters, and the
other shelters 4SEMO would thereafter sell, were and
are designed so that the entrances are at ground level
once the shelters are sunk into the ground.
47.
Before installation of the shelters, while a
shelter is sitting on the ground rather than being sunk
into it, the shelter’s opening is substantially above
ground level and a person cannot get into them or look
into them.

App. 86
48.
The viewing deck constructed by 4SEMO was
constructed to allow potential purchasers to look into
an uninstalled shelter so as to view the interior of the
shelter; It was constructed such that the deck height
was just above the top of the storm shelters being
displayed while they were sitting on the ground; The
shelters were nosed up against the deck, so that
persons standing on the deck could look down into
them and see the inside.
49.
The shelters were not enclosed within the
deck, but merely nosed up against it, and the exterior
of the shelters were still visible.
50.
4SEMO used a stencil to paint its Life Saver
Storm Shelters trademark, its related Greek Cross
logo, and its phone number onto the Initial Inventory
Shelters when they obtained them from the Aycocks in
April 2005.
51.
4SEMO used its viewing deck in connection
with the Existing Inventory Shelters beginning in April
of 2005, and nosed them against the deck such that the
Life Saver Storm Shelters name and Logo (and
4SEMO’s phone number) painted on the Existing
Inventory Shelters remained visible to the public.
52.
4SEMO also placed signage on the viewing
deck which utilized the Life Saver Storm Shelters mark
and the Greek Cross logo mark to reference the
shelters that could be purchased from 4SEMO.
53.
The signage was fastened to the road side of
the deck, and had the name and the Greek Cross logo
visible to passersby.

App. 87
54.
4SEMO also began using the Life Saver
Storm Shelters mark and related Greek Cross logo
mark in brochures it created and printed in-house in
April of 2005, after acquiring the Initial Inventory
Shelters.
55.
Plaintiff’s Exhibit 8 is a brochure created by
4SEMO as revised in late May of 2005. In the brochure,
4SEMO utilized the Life Saver Storm Shelters name
and Greek Cross logo, claimed trademark rights and
also claimed to use Life Saver Storm Shelters as a d/b/a
of the company.
56.
Plaintiff’s Exhibit 8 was a revised version of
the brochure using the marks originally created by
4SEMO in April of 2005; the original version had the
same general content as Plaintiff’s Exhibit 8.
57.
In the course of the April 2005 discussions
with the Aycocks and Defendants regarding 4SEMO’s
takeover of the Aycocks’ dealership, 4SEMO learned
that the smaller of the two Existing Inventory Shelters
it was purchasing from the Aycocks was actually a
discontinued model, and the Defendants agreed that,
the Defendants would swap out the discontinued
shelter for the newer version of the same size model.
58.
On May 5, 2005, the Defendants and 4SEMO
formally signed and entered into the Dealer Agreement
with Defendants pursuant to which 4SEMO became a
direct dealer of storm shelters manufactured by
Defendants; a true and accurate copy of the agreement
between the parties is reflected in trial exhibits
Plaintiff’s Exhibit 3 and Defendants’ Exhibit 25. (The
“Dealer Agreement.”)

App. 88
59.
On May 19, 2005, 4SEMO and the Aycocks
formally signed and entered into their agreement
pursuant to which the Aycocks released any rights
under their prior Dealer Agreement with Defendants to
4SEMO; on that date 4SEMO also paid the Aycocks for
the Initial Inventory Shelters which were already in
4SEMO’s possession. A true and accurate copy of the
agreement between 4SEMO and the Aycocks is also a
part of Plaintiff’s Exhibit 3.
60.
Following the signing of the Dealer
Agreement with Defendants, 4SEMO continued
actively marketing the sale of storm shelters using its
Life Saver Storm Shelters mark and Greek Cross logo
mark; 4SEMO applied the marks to the storm shelters
themselves by stenciling the name, logo and its phone
number onto shelters it sold, used the name and logo in
advertising, including yellow pages advertising, used
them in its brochures and at its facility, and used them
in use and care manuals and installation manuals for
the shelters it provided to purchasers of the shelters it
sold.
61.
In early May 2005, shortly after 4SEMO and
the Defendants signed the Dealer Agreement, Scott
Ingoldsby visited 4SEMO’s facilities on behalf of
Defendants to exchange a newer version shelter for the
smaller of the Existing Inventory Shelters, as 4SEMO
and the Defendants had previously agreed.
62.
When he did so, Ray Fielack, 4SEMO’s
president and principal, showed Scott Ingoldsby the
Life Saver Storm Shelters and Greek Cross logo marks
4SEMO had adopted and the brochures that they had
created using them; 4SEMO also explained to Scott

App. 89
Ingoldsby, how 4SEMO was marketing and selling the
storm shelters it sold, including those purchased from
SISS, under its trademarks and pursuant to a
business, marketing and advertising plan.
63.
At that time Scott Ingoldsby saw 4SEMO’s
Life Saver Storm Shelters mark and the Greek Cross
Logo stenciled onto the Initial Inventory Storm
Shelters and saw 4SEMO’s Life Saver Storm Shelters
signage on 4SEMO’s viewing deck.
64.
4SEMO then turned the smaller of the
Existing Inventory Shelters (with its Life Saver Storm
Shelters mark and logo stenciled on it) over to Scott
Ingoldsby for transport to the Defendants, and
accepted the newer, more valuable model of shelter
which Scott Ingoldsby had brought with him to
4SEMO.
65.
The smaller Existing Inventory Shelter was
then transported from 4SEMO’s Missouri location to
the Defendants in Illinois.
66.
4SEMO stenciled its Life Saver Storm
Shelters mark and the Greek Cross logo on the new
shelter it obtained from Defendants (the “Exchange
Shelter”), and placed the Exchange Shelter in 4SEMO’s
viewing deck alongside the remaining Initial Inventory
Shelter, so that potential customers could view the
shelters, and continued marketing the sale of storm
shelters under its Life Saver Storm Shelters name and
Greek Cross logo.
67.
In November of 2005, two individuals named
Mr. and Mrs. Corum visited the 4SEMO facility,
viewed the remaining Initial Inventory Shelter and the

App. 90
Exchange Shelter, the Life Saver Storm Shelters
signage and 4SEMO’s brochures which utilized the Life
Saver Storm Shelters mark and the Greek Cross Logo
mark and purchased the remaining Initial Inventory
Shelter from 4SEMO. The Corums paid for the shelter
at that time, but set up delivery of the shelter for a
future date.
68.
In December 2005, 4SEMO transported the
stenciled Existing Inventory Shelter the couple had
purchased to them, and caused the same to be installed
with the assistance of Scott Ingoldsby for the
Defendants.
69.
4SEMO continued to consistently market and
sell storm shelters under and using its Life Saver
Storm Shelters trademark and Greek Cross logo, and
has consistently used its marks in connection with its
sales and installations ever since.
70.
4SEMO has made regular and consistent
sales of storm shelters since May of 2005, and has
installed the same, and each of those regular and
consistent sales and installations were made under and
in conjunction with 4SEMO’s use of the Life Saver
Storm Shelters mark.
71.
4SEMO has been using the Life Saver Storm
Shelters name and Greek Cross logo as its trademarks
consistently and systematically since mid-April of 2005,
used them in conjunction with the exchange of the
Initial Inventory Shelter with Defendants in May of
2005, with the November 2005 arms-length storm
shelter sale noted above, and with every storm shelter
sale and installation since.

App. 91
72.
4SEMO has continuously used its Life Saver
Storm Shelters trademark to reflect it as the retail
source of the storm shelters it has sold and installed,
despite two changes of storm shelter manufacturers/
suppliers.
73.
4SEMO has continued to utilize the LifeSaver
Storm Shelters mark in all advertising materials,
brochures, care manuals, and by painting it via stencil
or decal sticker on all storm shelters it sells, regardless
of manufacturer.
74.
In February 2006, Defendants, acting
through Scott Ingoldsby, requested permission for
Defendants to use 4SEMO’s Life Saver Storm Shelters
trademark and Greek Cross logo mark in conjunction
with retail sales and installations of storm shelters by
Defendants in Southern Illinois.
75.
The request was made for and on behalf of all
Defendants by Scott Ingoldsby, and was not made on
behalf of any particular Defendant, and no company
names were used.
76.
Defendants only requested the right to use
4SEMO’s Life Saver Storm Shelters mark and related
logo for this limited use.
77.
After some consideration, 4SEMO agreed
that Defendants could use 4SEMO’s Life Saver Storm
Shelters trademark and Greek Cross logo mark in
conjunction with retail sales and installations of storm
shelters by Defendants in Southern Illinois, provided
that they were storm shelters Defendants
manufactured, that they were installed in the manner
with which 4SEMO was familiar, and that 4SEMO

App. 92
approved and controlled the printing of all marketing
materials containing its mark which Defendants would
use in such fashion. These were the only rights to use
4SEMO’s Life Saver Storm Shelters mark and Greek
Cross logo mark that were granted to Defendants.
78.
The Court specifically finds that the
testimony of Ray Fielack and the former 4SEMO
employees that such a limited use agreement was all
that was requested and all that was granted is credible,
and that the attempts of the Defendants to characterize
the agreement as something other than this limited use
agreement are not credible. The Court also specifically
finds the Defendants’ contention that the agreement
was solely for the rights to use the Greek Cross logo
and not for the Life Saver Storm Shelters name itself
is not credible and not believable.
79.
Notwithstanding the limited purposes for
which 4SEMO granted Defendants the right to use the
Life Saver Storm Shelters name and Greek Cross logo,
from the outset of Defendants’ acquisition of brochures
containing those marks from 4SEMO in February 2006
and continuing up through the trial of this cause, the
Defendants used the Plaintiff’s trademarks in ways
beyond the limited use that was authorized, including
the use of the same in connection with the marketing
and sale of their shelters to dealers nationwide for
resale, and in connection with direct sales and
installations outside of Southern Illinois.
80.
The Defendants also advertised and/or
marketed its products using the Life Saver Storm
Shelters mark in numerous forums and publications,

App. 93
including newspapers and trade shows across various
states.
81.
Defendants registered and used the domain
name for www.lifesaverstormshelters.com.
82.
In addition to its own direct misuse of the
Marks and advertising brochures and its own sale of
products and services under the Marks, the Defendants
also intentionally induced dealers and distributors of
storm shelters across the country to utilize 4SEMO’s
Life Saver Storm Shelters of Greek Cross logo marks
and to sell goods and services thereunder.
83.
Defendants also supplied, and continue to
supply, products to dealers and distributors with the
specific intent that they sell the same and related
services under the Life Saver Storm Shelters mark.
84.
All of Defendants’ sales and installations of
storm shelters have been made under and in
conjunction with 4SEMO’s Life Saver Storm Shelters
mark since February 6, 2006.
85.
4SEMO was unaware of the Defendants’ use
of the Life Saver Storm Shelters mark and Greek Cross
logo in ways and for purposes other than the
Defendants’ retail sale and installation of storm
shelters in Southern Illinois until 2011 and did not
consent to or authorize any such use.
86.
The actions taken by Defendants of which
4SEMO were aware prior to 2011 did not appear
inconsistent with the limited use agreement, and did
not put 4SEMO on notice of the Defendants’
unauthorized uses.

App. 94
87.
Defendants’ use of the marks in excess of
their authorized manner was knowing and intentional;
before 4SEMO even discovered the Defendants’
unauthorized use of its marks, Robert Ingoldsby, on
behalf of himself and the company Defendants,
discussed with Scott Ingoldsby that Defendants would
offer to purchase the Life Saver Storm Shelters name
and logo from 4SEMO if and when 4SEMO discovered
the improper use and complained.
88.
In or around late 2011, 4SEMO wanted to
update its marketing materials and brochures; when
4SEMO’s graphic designer went to work on the project,
she did a quick internet search for “LifeSavers Storm
Shelters” to locate 4SEMO’s website and was surprised
to see search engine returns for several websites all
around the country, which indicated several SISS
independent dealers and distributors were using the
4SEMO Life Saver Storm Shelters mark.
89.
The graphics designer contacted 4SEMO’s
president, Ray Fielack, and alerted him of what she
had found; Ray Fielack ran a confirming internet
search, and then immediately contacted Defendants’
representative, Scott Ingoldsby.
90.
The notification from its graphic designer in
2011 was the first notice that 4SEMO received of the
Defendants’ unauthorized use of the Life Saver Storm
Shelters and Greek Cross logo marks.
91.
In response to the call from Ray Fielack
demanding the cessation of the improper use, Scott
Ingoldsby, on behalf of Defendants, did not dispute the
contention of unauthorized use, but rather admitted

App. 95
the widespread unauthorized use, saying that he was
supposed to have talked to 4SEMO previously, and
made the proposal to buy the rights to the name and
the logo and related materials that he had already
discussed with Robert Ingoldsby.
92.
The agreement pursuant to which the
Defendants would purchase the rights to the marks
and related materials was refined over the next few
days.
93.
In the course of those discussions, Scott
Ingoldsby indicated the Defendants wanted to purchase
a registered mark and requested that 4SEMO register
the Life Saver Storm Shelters trademark and Logo
prior to the sale, and 4SEMO accordingly took steps to
do so.
94.
The agreement the parties reached in 2011
was that 4SEMO would not pursue any claims against
Defendants for their unauthorized use of 4SEMO’s Life
Saver Storm Shelters and Greek Cross logo marks,
Defendants would buy the rights to the Life Saver
Storm Shelters and Greek Cross logo marks and the
associated website artwork, brochure templates, and
other marketing materials from 4SEMO effective as of
that date, that the parties would determine how the
purchase price for those rights would be determined
and paid, and that Mr. Fielack or 4SEMO would work
with the Defendants on a national rollout marketing
campaign for the Defendants utilizing the marks,
including the offering of stencils and new brochures to
all of Defendants’ dealers.

App. 96
95.
The parties then acted under the agreement,
with periodic discussions on methods of pricing the
rights acquisition price, and Ray Fielack working with
Scott Ingoldsby to produce a nationwide stencil
campaign, for use in connection with the true national
roll out as agreed.
96.
Any and all consent of 4SEMO to the
continued use of the Life Saver Storm Shelters
trademarks by the Defendants after the Defendants’
2011 agreement to purchase the rights from 4SEMO
was based on the understanding that Defendants had
agreed to pay for the rights and was contingent on the
parties’ agreement being completed.
97.
In the months that followed, Defendants
continued to represent to 4SEMO that the agreement
was in place, continued to negotiate the price to be
paid, and Scott Ingoldsby worked with Ray Fielack on
the stencil and brochure design work for the national
marketing campaign that 4SEMO was to do under the
parties’ agreement.
98.
At some point prior to July 19, 2012,
however, the Defendants, through their attorney,
learned that an uninvolved and non-operational
Missouri company had used a phrase similar to
4SEMO’s Life Saver Storm Shelters trademark, (the
name “Life-Saver Storm Shelters,” with a hyphen), as
its company name back in 2002. The Defendants also
learned that, although out of business, that entity had
not been formally dissolved.
99.
That company, Life-Saver Storm Shelters,
LLC (with a hyphen), had originally been formed by an

App. 97
individual named John Grone in 2002. The company
and Mr. Grone are hereafter referred to, together, the
“Grone Company.”
100. Erroneously thinking that acquiring the
inactive Grone Company would somehow excuse their
unauthorized use of 4SEMO’s Life Saver Storm
Shelters mark and obviate the need to pay 4SEMO to
acquire the rights the Defendants had agreed to buy,
the Defendants decided they would not honor the
agreement to purchase the marks from 4SEMO, and
would instead purchase the dormant, nonoperational
Grone Company and hold the same as a wholly owned
subsidiary of the Defendants’ purported SISS entity.
101. On July 19, 2012, Defendants told 4SEMO,
via a text from Scott Ingoldsby to Ray Fielack, that
Defendants were thinking of backing out of, and not
completing, their agreement with 4SEMO to buy the
Life Saver Storm Shelters mark and associated
materials, but did not disclose their intent to purchase
the Grone Company.
102. In an ensuing phone call, 4SEMO reminded
Scott Ingoldsby that if Defendants did not close their
purchase agreement, the Defendants’ use of the Life
Saver Storm Shelters mark would be unauthorized.
After a heated exchange in which Scott Ingoldsby
stated that the Defendants would then stop selling
shelters to 4SEMO so it would have nothing to sell
under its marks, the parties calmed and Scott
Ingoldsby indicated he would have further discussions
with Robert Ingoldsby and get back to 4SEMO with the
Defendants’ decision.

App. 98
103. Scott Ingoldsby did not get back to 4SEMO,
but during the first or second week of August, 2012
Robert Ingoldsby confirmed the Defendants’
withdrawal from their Marks purchase agreement in a
conversation with Ray Fielack at Defendants’ facility.
104. Following the Defendants’ withdrawal from
their agreement to buy the marks from 4SEMO, the
Defendants filed an objection to 4SEMO’s trademark
application and filed a competing registration
application. Those filings were the first time that
4SEMO became aware of any claim that there had been
a name similar to 4SEMO’s Life Saver Storm Shelters
mark used in connection with storm shelters prior to
4SEMO’s adoption of the mark.
105. Even in those 2012 USPTO filings, however,
the Defendants never claimed that 4SEMO knew of
any such prior “use” when 4SEMO independently
created and adopted its Life Saver Storm Shelters
mark and corresponding Greek Cross logo, or that the
Defendants had ever mentioned such a prior company
to 4SEMO.
106. The Defendants also removed 4SEMO from
their website listing of authorized dealers, refused to
fill existing orders for 4SEMO, refused to take
additional listings from 4SEMO, and began routing
potential and actual purchasers from 4SEMO’s
contractual dealership territory to other dealers, or
selling and installing shelters in 4SEMO’s territory
themselves, either directly or through the “reanimated”
Grone Company subsidiary they had bought from John
Grone’s widow.

App. 99
107. Defendants also continued to use 4SEMO’s
Life Saver Storm Shelters mark in conjunction with all
sales and installations of storm shelters, at both
wholesale and retail, and in fact expanded their use of,
and investment in, the mark.
108. Despite cutting off all business ties and
refusing to sell or deliver product to 4SEMO,
Defendants did not attempt to terminate the Dealer
Agreement until a year later, in July of 2013, when
Defendants’ counsel sent a letter of termination to
counsel for 4SEMO.
109. The Defendants never offered or attempted to
repurchase the three shelters 4SEMO had in its
possession and used as display shelters at an
“agreeable price” when they claimed to terminate the
Dealer Agreement with 4SEMO.
110. Defendants never took any steps to attempt
to determine what a fair price to repurchase the
shelters from 4SEMO would be.
111. Notwithstanding the Dealer Agreement
which provided 4SEMO with exclusive rights to install
shelters manufactured by Defendants in identified
territories, between the date the agreement was signed
and the date Defendants purported to terminate it,
twenty-five storm shelters were sold and installed in
the exclusive territories granted to 4SEMO in that
Dealer Agreement by either Defendants, a wholly
owned subsidiary of Defendants, or by another dealer
of Defendants, due to the acts and facilitation of
Defendants.

App. 100
112. Scott Ingoldsby acknowledged at trial that, as
a practical matter, no dealer of Defendants’ storm
shelters would or will install a shelter that they didn’t
or don’t also sell to the purchasing customer.
113. If Defendants had informed storm shelter
dealers and customers that any storm shelters
purchased in the territories granted to 4SEMO during
the 4SEMO dealership contract period had to be
installed by 4SEMO, 4SEMO would have received the
associated shelter sale business and revenue, as well as
any revenue related to the installation of the shelters.
114. The amount of profit 4SEMO would have
made from the sales and installations of the 25 storm
shelters that were installed within the exclusive
territories granted by Defendants to 4SEMO by others
during the contract period was calculated by Plaintiff’s
expert, Mark Hoffman, a Certified Public Accountant
licensed in Missouri from the records of the Defendants
themselves.
115. The Court finds Mr. Hoffman to be credible
and his analytical approach to be sound.
116. The amount of profit 4SEMO would have
made from the sales and installations of the 25 storm
shelters that were installed within the exclusive
territories granted by Defendants to 4SEMO by others
during the contract period was $26,940.00.
117. Defendants used 4SEMO’s Life Saver Storm
Shelters mark on or in connection with its sales and
installations of each storm shelter sold and installed
since February of 2006, both at wholesale and retail
and without regard to customer or purpose.

App. 101
118. The Defendants’ use of 4SEMO’s Life Saver
Storm Shelters mark and Greek Cross logo mark has
engendered actual confusion in the market place.
a. After 4SEMO began selling storm shelters
manufactured by Atlas, a different manufacturer of
storm shelters, a confused potential 4SEMO
customer came to the Defendants’ facilities in an
attempt to purchase an Atlas manufactured shelter,
due to the Defendants’ continued use of 4SEMO’s
Life Save Storm Shelter mark.
b. Similarly, 4SEMO has and does receive
periodic inquiries, both by phone and in person
visits, from potential customers about the
Defendants’ manufactured shelters on an ongoing
basis, rather than for those models from other
manufacturers that are actually sold by 4SEMO,
due to Defendants’ continued use of 4SEMO’s Life
Saver Storm Shelters mark.
119. The Defendants are likely to continue using
the Life Saver Storm Shelters mark post trial and on
an ongoing basis, and to continue to urge and purport
to authorize to do so, unless prevented from doing so.
120. The widespread use of the 4SEMO marks by
Defendants and the Defendants’ active encouragement
of its dealers nationwide to also use 4SEMO’s Life
Saver Storm Shelters mark, has damaged and is
damaging 4SEMO, and will continue to so.
121. The Defendants did not take any actions or
act any differently than they would have acted if
4SEMO would have asserted its claims against them

App. 102
sooner than they were actually asserted. They have
conducted business as usual.
122. The revenues the Defendants gained from
sales made in conjunction with an unauthorized use of
4SEMO’s Life Saver Storm Shelters mark were also
calculated by Plaintiff’s expert, Mark Hoffman, from
the records of the Defendants themselves. Mr. Hoffman
possesses several other accounting certifications,
besides his CPA, and has extensive experience in
determining trademark damages.
123. The Court finds Mr. Hoffman to be credible
and his analytical approach to be sound.
124. Not including sales and installations made by
Defendants in Southern Illinois, from February 2006
until December 31, 2011, the Defendants earned
$6,104,992.00 from sales and installations made in
conjunction with their use of the Life Saves Storm
Shelters marks (i.e. the Defendants earned
$6,104,992.00 from their use of the Life Saves Storm
Shelters mark and/or Greek Cross logo mark in
manners other than those that had been agreed to by
4SEMO), which they characterized as revenue earned
by SISS.
125. From January 2012 until July 1, 2017 (the
month of trial), Defendants earned an additional
$11,266,011.000 from their sales and installations
made in conjunction with their use of 4SEMO’s Life
Saver Storm Shelters trademark, of which they
characterized $10,388,770.00 as additional revenue of
SISS and $877,241.00 of which they characterized as
revenue of Ingoldsby Excavating.

App. 103
126. As of the first day of July, 2017, the
Defendants had thus earned a total of $17,371,003.00
in revenue from (a) their use of 4SEMO’s Life Saver
Storm Shelters mark between February 6, 2006 and
December 31, 2011 and (b) their continued use of the
4SEMO Life Saver Storm Shelters mark after January
1, 2012.
127. Of the $17,371,003.00 in revenue so earned
by the Defendants, $11,266,011 was earned between
January 1, 2012 and July 1, 2017.
128. The Defendants did not submit any evidence
of costs or other offsets to reduce or offset against the
revenue numbers at trial.
129. Defendant Robert Ingoldsby was and is the
President of both SISS and Ingoldsby Excavating and,
to the extent the same were validly operating as
separate entities, made the decision for himself and
each of those companies that they would use Plaintiff
4SEMO’s LifeSaver Storm Shelters mark in all
manners in which it was used, and to keep using it in
such manners up through trial.
130. If and to the extent they were separate
entities and/or operations, SISS sold product to
Ingoldsby Excavating knowing that it would be sold
and installed under 4SEMO’s Life Saver Storm
Shelters mark, and encouraging and inducing the sales
under the mark by Ingoldsby Excavating.

App. 104
V. CONCLUSIONS OF LAW
The Court has made the following conclusions of
law:4
1.
This Court has original subject matter
jurisdiction over this action pursuant to the Lanham
Act, 15 U.S.C. §1051, et seq., 28 U.S.C. §1331 and 28
U.S.C. §1338(a)(b), and has supplemental jurisdiction
over 4SEMO’s state law and common law claims under
28 U.S.C. §1367.
2.
Venue is proper in the Southern District of
Illinois pursuant to 28 U.S.C. §1391, 28 U.S.C. §1367
and 15 U.S.C. §1121.
3.
Upon the filing of the Defendants’ initial
Complaint in this cause, the United States Patent and
Trademark Office stayed its review of 4SEMO’s
pending trademark registration application, to await
the results of this case; this matter thus involves
unregistered marks.
4.
The Lanham Act protects unregistered marks
to the same extent as registered. Two Pesos, Inc. v.
Taco Cabana, Inc., 505 U.S. 763, 768, 112 S. Ct. 2753,
120 L.Ed.2d 615 (1992).
4

As noted above, for clarity of presentation, this Amended
Memorandum and Order presents matters deemed to be findings
of fact separate from those deemed to be conclusions of law.
However, the distinction is not always easily made and to the
extent any matter set forth below as a conclusion of law is more
properly considered a finding of fact, it should be considered a
finding of fact. It should be noted that the Court relied on all
matters listed in Findings of Fact to arrive at the conclusions and
decisions in this matter.

App. 105
5.
The Lanham Act protects words, names,
symbols, or devices that a person or company uses in
connection with goods or services, in commerce, “to
identify and distinguish [its] goods, including a unique
product, from those manufactured or sold by others and
to indicate the source of the goods.” 15 U.S.C.
§1125(a)(1), 1127.
6.
4SEMO established its ownership of the
phrase Life Saver Storm Shelters (the “Name Mark”)
and the Greek Cross logo with the Name Mark
imbedded in its horizontal arm (the “Logo Mark”) by
appropriation and use of that phrase and logo to
identify and distinguish 4SEMO’s goods and services
from those of its competitors. The Name Mark and
Logo Mark. (Hereafter the Name Mark and Logo Mark
may be referred to, together, at times as “the Marks”).
7.
The painting of the Name Mark and Logo
Mark on the Existing Inventory Shelters and the use of
the Marks on 4SEMO’s viewing deck signage, and the
dates of brochures and other advertising materials
beginning in April 2005, may qualify as use of the
Marks in Commerce, but in any event 4SEMO first
used the Name Mark and Logo Mark in commerce at
least as early as May 2005 when the smaller Existing
Inventory Shelter, with the Name Mark and Logo
Mark painted upon it (along with 4SEMO’s phone
number) was exchanged for a shelter of higher value
and transported from 4SEMO’s Missouri location to the
Defendants’ Illinois location in early May of 2005. The
exchange and transfer was a bona fide transaction and
was not made simply to reserve a right to the Marks.
15 U.S.C. §1127.

App. 106
8.
Further, 4SEMO’s bona fide sale of the
larger, remaining, Existing Inventory Shelter in
November of 2005 to the Corums’ was also the result of,
and an example of, the use of the Marks in commerce.
9.
4SEMO has consistently and regularly used
the Marks in commerce in conjunction with its sales
and installations of storm shelters ever since.
10.
The Marks are each a valid trademark that
is, and has been at all times relevant to this action,
entitled to protection under 15 U.S.C. §1125 as an
unregistered trademark.
11.
The agreement reached between 4SEMO and
the Defendants in February of 2006 for the Defendants’
limited use of the Marks constituted a trademark
licensing agreement.
12.
Defendants’ rights to the Life Saver Storm
Shelters trademark and associated Greek Cross logo
trademark came solely from, and were limited to, their
agreement with 4SEMO.
13.
The Defendants’ use outside the scope of the
permitted use allowed under their agreement with
4SEMO was infringement, as was their continued use
after any permission to use the Marks was withdrawn.
See Segal v. Geisha NYC LLC, 517 F.3d 501, 506 (7th
Cir. 2008); Franchised Stores of New York, Inc. v.
Winter, 394 F.2d 664, 668 (2d Cir. 1968); see also
Masters v. UHS of Delaware, 631 F.3d 464, 473 (8th
Cir. 2011); Brennans Inc. v. Dickie Brennan & Co. Inc.,
376 F.3d 356, 365 (5th Cir. 2008); Watec Co., LTD. v.
Liu, 403 F.3d 645, 649 (9th Cir. 2005); McCarthy on
Trademarks and Unfair Competition § 25:30 (4th ed.).

App. 107
14.
The evidence establishes that Defendants’
use of the Marks in commerce has caused actual
confusion and is likely to cause confusion, mistake or
deception as to the source of the products bearing or
sold in conjunction with the Marks.
15.
In any event, where, as here, the alleged
infringer is using the identical language as the claimed
trademark owner, confusion is presumed and need not
be separately established. Processed Plastic Co. v.
Warner Commc’ns, Inc., 675 F.2d 852, 857 (7th Cir.
1982).
16.
In addition, Defendants’ allegation in
paragraph 10 of their Amended Complaint that the use
of the identical Life Saver Storm Shelters mark by
Plaintiff 4SEMO and Defendants is likely to mislead,
deceive, and confuse consumers is a judicial admission
of such confusion, binding on Defendants. SOO Line
Railroad Company v. St. Louis Southwestern Railway
Company, 125 F.3d. 481 (7th Cir. 1997).
17.
The Defendants’ use of the Marks in
commerce on or in connection with its goods or services
was also the use of the Marks in a manner that has
deceived or is likely to deceive as to the affiliation,
connection, or association of the Defendants with
4SEMO and as to 4SEMO’s sponsorship, or approval of
the Defendants and their other dealers’ goods, services,
and commercial activities in violation of 15 U.S.C.
§1125(a)(1).
18.
The unauthorized use by the Defendants of
4SEMO’s Name Mark and Logo Mark has caused
and/or is likely to cause confusion, mistake or deception

App. 108
as to the origin, sponsorship or association with the
Marks. Consumers are likely to believe that the
Defendants’ products or services are licensed by,
sponsored by, originated with or associated with
4SEMO and the unauthorized use of the Marks falsely
represents the Defendants as being connected with the
ownership of the Marks.
19.
The Defendants have also intentionally,
willfully, knowingly and wrongfully advertised,
distributed and promoted the Marks without the
consent, express or implied, permission, or
authorization of the 4SEMO and as such, have
misrepresented the nature and relationship between
4SEMO and the Defendants and the Defendants’
products and/or services.
20.
Further, the Defendants have failed to
properly credit 4SEMO as the true creator of and origin
of the Marks, and have intentionally refused to identify
4SEMO as the true creator of the Marks.
21.
By so doing, the Defendants are causing
mistake, confusion and deception as to the true origin
of products and the originality of products, and have
falsely and deceptively advertised and promoted
products.
22.
The Defendants’ unauthorized use of
4SEMO’s Life Saver Storm Shelters and Greek Cross
logo marks violated, and is violating, 11 U.S.C. §1125.
23.
Pursuant to 15 U.S.C. §1117, 4SEMO is
entitled, subject to the provisions of sections 1111 and
1114 of that title and principles of equity, to an award
of (1) Defendants’ profits, (2) any damages sustained by

App. 109
4SEMO and (3) the costs of the action. In assessing
profits, 4SEMO was required to prove Defendants’
sales only; Defendants were required to prove all
elements of cost or deduction claimed. If this Court
finds that the amount of the recovery based on profits
is either inadequate or excessive the Court may in its
discretion enter judgment for such sum as the Court
shall find to be just, according to the circumstances of
the case. Such sum in either of the above circumstances
shall constitute compensation and not a penalty. The
Court in exceptional cases may award reasonable
attorney fees to the prevailing party.
24.
Defendants’ use of the Marks has irreparably
damaged 4SEMO and will continue to damage 4SEMO
irreparably unless enjoined by this Court, as a result of
which 4SEMO is without an adequate remedy at law.
25.
4SEMO met its burden of proof and
established that Defendants earned $17,371,003.00 in
revenue from sales and installations of storm shelters
made in conjunction with the unauthorized use of the
Marks, of which $16,493,762.00 was characterized by
Defendants as revenues earned by SISS and
$877,241.00 of which was characterized by Defendants
as revenue of Ingoldsby Excavating.
26.
Defendants came forward with no evidence of
costs or other offsets or reductions that Defendants
incurred in conjunction with such sales, under the
names of SISS, Ingoldsby Excavating or otherwise and
affirmatively represented prior to trial that they were
waiving their right to do so. By adoption of the
Magistrate Judge’s Report and Recommendation, Doc.
222, the Defendants were prohibited from opposing

App. 110
Plaintiff’s evidence relating to its damages for
infringement.
27.
Accordingly, as a matter of law, the
$17,371,003.00 of revenues earned by the Defendants
from violations of section 15 U.S.C. §1125 are
considered the profits they obtained. 15 U.S.C. §1117.
28.
The Defendants’ use of the Marks in manners
beyond the authorized limited use granted by 4SEMO
and the continued use of the Marks after even that
limited use grant terminated was willful, egregious and
intentional.
29.
Further, the Court notes that the vast
amount of the revenue received by Defendants from
sales in conjunction with their unauthorized use of the
Marks, $11,266,011 of the $17,371,003.00 of such total
revenue, was received after the Defendants were
confronted by 4SEMO and after the Defendants agreed
to buy the Marks from 4SEMO, only to withdraw from
and refuse to follow through on that Agreement.
30.
An award to 4SEMO of the profits earned by
Defendants in violation of 15 U.S.C. §1125 would be
adequate under the facts and circumstances of this
case. Even though the Court makes conclusions about
the amount of damages to be awarded as to the
different counts at issue, the Court does not intend for
Plaintiff to be awarded more than $17,397,943.00. The
further intent of the Court in concluding damages as to
the different counts is that should any of the counts be
overturned or reversed on appeal it is those damages
which will be declared null and void with the surviving
counts standing on their own but without duplicating

App. 111
the damages awarded. Nullification of the breach of
contract claim would result in a reduction of the total
amount awarded by $26,940.00.
31.
Defendants have acted in bad faith,
intentionally, willfully and maliciously, have refused to
cease the infringing activity, and have caused 4SEMO
unnecessary trouble and expense.
32.
This case is not deemed exceptional and
4SEMO’s request for an award of attorneys’ fees shall
not be allowed. 15 U.S.C. §1117. Plaintiff’s motion for
attorney fees, Doc. 259, is expressly denied as the
Court concludes that this case does meet the
requirement of exceptional nor are sanctions
appropriate due to any actions or omissions on the part
of the Defendants.
33.
The actions of each of the Defendants, and of
Scott Ingoldsby, were taken as agent of each of the
Defendants, and constituted acts of each Defendant.
34.
If and to the extent they were operating as
validly separate entities, SISS, Robert Ingoldsby, and
Ingoldsby Excavating combined for the purpose of
accomplishing the unlawful purpose of using the
trademarks of 4SEMO without authorization, and one
or more of the conspirators committed an overt tortious
or unlawful act in furtherance of that concerted action.
The Defendants thus engaged in a Civil Conspiracy as
defined by law, rendering them each liable for the
actions of the others taken in furtherance of such
combination and for such purpose.” Fritz v. Johnston,
209 Ill. 2d 302, 317807 N.E.2d 461, 282 Ill. Dec. 837

App. 112
(2004), citing Adcock v. Brakegate, Ltd., 164 Ill. 2d 54,
62-63, 645 N.E.2d 888, 206 Ill. Dec. 636 (1994).
35.
To the extent they are separate entities, SISS
is contributorily and vicariously liable for the improper
use of the Life Saver Storm Shelters mark by Ingoldsby
Excavating.
36.
Robert Ingoldsby is and was the corporate
officer who was and is the moving, active conscious
force behind SISS and Ingoldsby Excavating’s uses of
4SEMO’s Life Saver Storm Shelters marks and is thus
individually jointly and severally liable with SISS and
Ingoldsby Excavating for those companies’ liability
under the Lanham Act (Counts I and III of 4SEMO’s
Second Amended Counterclaim). Dangler v. Imperial
Mach. Co., 11 F.2d 945, 947 (7th Cir. 1926).
37.
All Defendants are jointly and severally liable
for the unauthorized uses of the Marks taken in the
name of, or which lead to revenues booked by
Defendants as having been received by SISS.
38.
All Defendants are jointly and severally liable
for the unauthorized uses of the Marks taken in the
name of, or which lead to revenues booked by
Defendants as having been received by Ingoldsby
Excavating.
39.
The factual allegations forming the basis for
4SEMO’s Lanham Act claims and UDTPA claims are
the same and, accordingly, the legal inquiry is the same
under both statutes. Claims for unfair competition and
deceptive business practices brought under Illinois
statutes are to be resolved according to the principles
set forth under the Lanham Act. Web Printing Controls

App. 113
Co. v. Oxy-Dry Corp., 906 F.2d 1202, 1206 n.5 (7th Cir.
1990).
40.
The Defendants have passed, and are
passing, off goods or services as those of another, in a
manner which causes likelihood of confusion or of
misunderstanding as to the source, sponsorship,
approval, or certification of goods and causes likelihood
of confusion or of misunderstanding as to affiliation,
connection, or association with or certification by
another, in violation of the UDTPA 815 Ill. Comp. Stat.
§510/2, et seq.
41.
The unauthorized use of 4SEMO’s Marks by
Defendants on products, on advertisements, on the
internet and in connection with services identical
and/or similar to those provided by 4SEMO causes a
likelihood of confusion and deceives the public into
believing that 4SEMO has authorized the use of such
Marks by the Defendants.
42.
The unauthorized use of 4SEMO’s Marks, as
stated herein, on products, on advertisements, on the
internet and in connection with services identical
and/or similar to those provided by 4SEMO causes a
likelihood of confusion and deceives the public into
believing that 4SEMO has authorized the use of such
Marks by the Defendants.
43.
4SEMO has been and is being damaged by
such violations and has no adequate remedy at law and
the Defendants’ unlawful and willful conduct will
continue to damage 4SEMO unless enjoined by this
Court.

App. 114
44.
The Defendants’ receipt of revenues from the
unauthorized use of the Marks constitutes a
voluntarily acceptance of a benefit that would be
inequitable for the defendant to retain without
compensating the plaintiff. Cleary v. Philip Morris Inc.,
656 F.3d 511, 516 (7th Cir. 2011).
45.
The Defendants’ actions in benefitting from
their wrongful use of the Marks were taken in the
course of and arose out of their business, and were
committed in and out of their principal places of
business in Illinois.
46.
It would be unfair and unjust under the
totality of the circumstances for the Defendants to
retain and enjoy the benefits of their unauthorized use
of 4SEMO’s Marks.
47.
4SEMO has no remedy at law to secure
redress for the unauthorized and uncompensated use
of its ideas, plan and materials, and it would be unjust
for Defendants to retain the enrichment gained from
their improper use of such materials without
compensating 4SEMO.
48.
The Dealer Agreement between Defendants
and 4SEMO was a valid and enforceable contract, was
substantially performed by 4SEMO, was breached by
the Defendants’ installation and facilitation of the
installation by others of storm shelters within the
territories for which Defendants had granted 4SEMO
exclusive installation rights, and Defendants’ breach
caused 4SEMO damages. Reger Dev., LLC v. Nat’l City
Bank, 592 F.3d 759, 764 (7th Cir. 2010).

App. 115
49.
If Defendants had honored their obligation to
provide 4SEMO with its exclusive right to install
shelters manufactured by Defendants in the territories
granted to 4SEMO under the Dealer Agreement,
4SEMO would have also gained the related sales of the
shelters to be installed.
50.
The loss of those sales is a direct and
proximate result of Defendants’ breach of their
obligations under the Dealer Agreement, and the
Defendants” breach proximately caused 4SEMO to lose
profits totaling $26,940.00.
51.
The Defendants asserted no affirmative
defenses to 4SEMO’s breach of contract claim at trial,
and there is no evidence of any such affirmative
defense.
52.
Although the Defendants asserted at trial
that they had “several defenses, including laches and
prior use” to 4SEMO’s trademark related claims, their
affirmative defenses as plead in their response to
4SEMO’s Second Amended Counterclaim did not
include any claim of prior use.
53.
Further, and in any event, there was no
evidence at trial of any prior use of a phrase similar to,
or identical to, 4SEMO’s Name Mark or Logo Mark by
the Defendants. Any and all use of a phrase similar to
or identical to the Name Mark by the Defendants prior
to 4SEMO’s independent adoption of the Name Mark
and Logo mark was the use of a phrase coined by the
Grone Company, being used by or with permission of
the Grone Company. To the extent there was any such
use, that use inured to the benefit of the Grone

App. 116
Company and did not legally constitute use by
Defendants.
54.
Moreover, the use of phrase similar to the
Name Mark prior to 4SEMO’s independent and
separate adoption of the Name Mark by or for the
benefit of the Grone Company did not constitute “prior
use” of a trademark, or any other use, of a type
sufficient to constitute a defense to the assertion of
trademark rights in the Name Mark or Logo mark by
4SEMO as a matter of law. Zazu Designs v. L’Oreal,
S.A., 979 F.2d 499, 503 (7th Cir. 1992) (Stating “use’
meant the sales to the public of a product with the
mark attached). 2 McCarthy on Trademarks §16:9.
55.
Further, due to the fact that the evidence
establishes no use of any name similar to the Name
Mark by or with the permission of the Grone Company
at any time between 2005 and 2012, any trademark
rights of the Grone Company derived from any use
prior to that time would have been abandoned as a
matter of law. 15 U.S.C. §1127.
56.
Finally, and determinatively in any event,
upon Defendants’ agreement with 4SEMO to use
4SEMO’s Life Saver Storm Shelters trademark and
associated Greek Cross logo trademark in February of
2006, any claim of Defendants to any independent
rights to those trademarks were lost and merged into
the license. Y.M.C.A. v. Flint Y.M.C.A., 229 U.S.P.Q.
32, 35-36 (E.D. Mich. 1985). 3 McCarthy on
Trademarks and Unfair Competition §18:47 (4th ed.)
(“Under the merger rule, if: (1) party Alpha uses the
mark and later becomes a licensee of Beta under the
same mark; and (2) the Alpha-Beta license ends; then

App. 117
(3) Alpha cannot rely upon its prior independent use as
a defense against an infringement claim brought
against it by Beta. Alpha’s prior trademark rights were
“merged” with that of Beta and inured to the benefit of
Beta”). While the 7th Circuit has not made any express
statements on this merger theory, it has been upheld in
the 3rd (United States Jaycees v. Philadelphia Jaycees,
639 F.2d 134, 143 (3d Cir. 1981)), 4th (Grand Lodge
Improved B.P.O.E. of the World v. Eureka Lodge No. 5,
114 F.2d 46, 47 (4th Cir. 1940)), and 9th Circuits (U.S.
Jaycees v. San Francisco Jr. Chamber of Commerce,
513 F.2d 1226 (9th Cir. 1975)).
57.
Defendants’ claim of a Laches defense was
also not established at trial. To prevail on the
affirmative defense of laches, Defendants would have
had to prove three things: (1) that Plaintiff had actual
or constructive notice of Defendants’ use of Lifesaver
Storm Shelters (beyond the limited permission);
(2) that Plaintiff showed an unreasonable lack of
diligence in taking action as to Defendants’ use of
Lifesaver Storm Shelters; and (3) that Defendant would
be prejudiced by allowing Plaintiff to assert its rights
at this time. Chattanoga Mfg., Inc. v. Nike, Inc., 301
F.3d 789, 792-93 (7th Cir. 2002); Sara Lee Corp. v.
Kayser-Roth Corp., 81 F.3d 455 (4th Cir. N.C. 1996).
58.
Further, the estoppel-by-laches defense arises
only where the plaintiff has unreasonably delayed its
pursuit of a remedy. See Brittingham v. Jenkins, 914
F.2d 447, 456 (4th Cir. Md. 1990).
59.
In addition, attempts to resolve a dispute
without resorting to a court do not constitute
unreasonable delay for determining the applicability of

App. 118
the doctrine of laches.” Hot Wax, Inc. v. Turtle Wax,
Inc., 191 F.3d 813, 823 (7th Cir. 1999).
60.
The evidence at trial indicates that 4SEMO
did not wait an impermissible amount of time under all
the circumstances before asserting its claims.
Moreover, the Defendants expressly testified that they
did not change their position in any way due to any
delay by 4SEMO before filing its claims, and they
would not have acted differently in any manner if the
claims had been asserted sooner.
61.
Defendants did not assert or litigate any
other affirmative defenses during the trial of this
action and, accordingly, they were waived. To the
extent they were not waived, however, they also were
not established as a matter of law.
62.
Defendants’ response to 4SEMO’s Second
Amended Counterclaim asserts a conclusory defense of
Waiver or Unclean Hands. However, “waiver is an
intentional relinquishment of a known right,” in
Anderson v. Catholic Bishop of Chicago, 759 F.3d 645,
651 (7th Cir. 2014), and 4SEMO never acted
affirmatively to indicate that it did not own the Marks
or would not enforce its rights. The mere fact that
4SEMO did not discover that the Defendants had
undertaken their scheme until 2011 is insufficient.
63.
Defendants also asserted a vague defense of
“Estoppel” without explanation in their written
pleadings. Estoppel requires proof that a trademark
owner was aware of the infringing conduct and yet
acted in a way that induced the infringer to reasonably
rely upon such action to his detriment. Saverslak v.

App. 119
Davis-Cleaver Produce Co., 606 F.2d 208, 213 (7th Cir.
1979). To assert equitable estoppel, a defendant must
show that (1) plaintiff’s misleading communication,
with plaintiff’s knowledge of the true facts, prompted
the defendant to infer that the plaintiff would not
enforce its rights against the defendant; (2) the
defendant relied on that conduct; and (3) the defendant
would be prejudiced if the plaintiff were allowed to
bring suit. Kennedy v. United States, 965 F.2d 413, 417
(7th Cir. 1992) See In re Larson, 862 F.2d 112, 115 (7th
Cir. 1988) (quoting United States v. Asmar, 827 F.2d
907, 912 (3rd Cir, 1987)).
64.
To the extent the estoppel defense was
intended to be based on any perceived delay by 4SEMO
in bringing 4SEMO’s claims, the evidence does not
support such a claim. To the extent Defendants’
defense was intended to address their apparent
contention that 4SEMO is estopped from asserting the
Defendants acted improperly by using the Marks from
2011 until August of 2012, during the time period in
which 4SEMO was acting in reliance on the
Defendants’ agreement to purchase the Marks from
4SEMO which the Defendants later disavowed, the
defense also fails.
65.
The agreement regarding the Defendants’
purchase of the Marks from 4SEMO demonstrated that
the Defendant understood the trademarks belonged to
the Plaintiff. The fact that 4SEMO did not object to
Defendants’ use of the Marks in reliance on that
agreement, does not provide a defense for the
Defendants upon their failure to honor that agreement.
Rather, it is evidence of the willful and knowing nature

App. 120
of their continued infringement a good or service.
Gorenstein Enterprises, Inc. v. Quality Care-USA, Inc.,
874 F.2d 431, 435 (7th Cir. 1989)
66.
The Defendants had also claimed
“acquiescence” in their written pleadings. “Unlike
laches, acquiescence implies active consent to an
infringing use of the marks and requires a defendant to
establish that (1) the senior user actively represented
it would not assert a right or a claim; (2) the delay
between the active representation and assertion of the
right or claim was not excusable; and (3) the delay
caused the defendant undue prejudice.” Hyson USA,
Inc. v. Hyson 2U, Ltd., 821 F.3d 935, 941 (7th Cir.
2016) (Quoting SunAmerica Corp. v. Sun Life Assur.
Co. of Canada, 77 F.2d 1325, 1334 (11th Cir. 1996)).
Again, the evidence does not establish any legally
effective consent, let alone “active consent,” was given
by 4SEMO to the Defendants.
67.
Defendants also did not pursue their statute
of limitations defenses at trial – with good reason. The
evidence established that 4SEMO was unaware of the
conduct complained of until 2011. 4SEMO’s claims
were on file as of May 29, 2013, makings it claims well
within all applicable statutes of limitation.
VI. FINAL CONCLUSION
Accordingly, upon consideration of the evidence,
argument of counsel, all matters of record and in light
of the findings of fact and conclusions of law set forth
above, the Court hereby ORDERS as follows:
1.
The Court finds in favor of 4SEMO.Com, Inc.,
and against Robert Ingoldsby, Southern Illinois Storm

App. 121
Shelters, Inc. and Ingoldsby Excavating, Inc., jointly
and severally, and awards Plaintiff permanent
injunctive relief and total monetary damages of
$17,397,943.00, as follows:
a. Monetary Damages:
i.
Damages on Counts I, III and V of
4SEMO.Com, Inc.’s Second Amended
Counterclaim in the amount of Seventeen
Million, Three Hundred and Seventy-One
Thousand and Three Dollars
($17,371,003.00), an amount equal to the
profits earned by Defendants from their
wrongful use of 4SEMO’s Life Saver Storm
Shelters mark, is adjudged against Robert
Ingoldsby, Southern Illinois Storm Shelters,
Inc. and Ingoldsby Excavating, Inc., jointly
and severally, and in favor of 4EMO.Com,
Inc.;
ii.
Damages on Count VIII of
4SEMO.Com, Inc.’s Second Amended
Counterclaim in the amount of Twenty-six
thousand nine hundred and forty dollars
($26,940.00), being the losses suffered by
4SEMO.Com, Inc. as a proximate result of
Defendants breach of their Dealer Agreement
with 4SEMO.Com, Inc., is entered against
Robert Ingoldsby, Southern Illinois Storm
Shelters, Inc. and Ingoldsby Excavating, Inc.,
jointly and severally, and in favor of
4EMO.Com, Inc.;

App. 122
iii.
Damages on Count IX of
4SEMO.Com, Inc.’s Second Amended
Counterclaim in the amount of Seventeen
Million Three Hundred Seventy One
thousand
and
Three
Dollars
($17,371,003.00.), being equal to the
enrichment received by the Defendants that
it would be unjust for them to retain, is
adjudged against Robert Ingoldsby, Southern
Illinois Storm Shelters, Inc. and Ingoldsby
Excavating, Inc., jointly and severally, and in
favor of 4EMO.Com, Inc.;
iv.
Damages on Count X of
4SEMO.Com, Inc.’s Second Amended
Counterclaim in the amount of Seventeen
Million Three Hundred Seventy One
thousand and
Three
Dollars
($17,371,003.00), representing the total
amounts awarded to 4SEMO.Com, Inc. for
the wrongful acts taken by and pursuant to
the Defendants’ Civil Conspiracy.
b. Injunctive Relief
i.
Injunctive relief is hereby granted
in favor of 4SEMO.Com, Inc. on Counts I, III
and V of the Second Amended Counterclaim;
Robert Ingoldsby, Southern Illinois Storm
Shelters, Inc. and Ingoldsby Excavating, Inc.,
and all persons acting by, through, at the
encouragement of, or due to any purported
permission or authorization from all or any of
them, are hereby immediately permanently
enjoined from using, attempting to use, or

App. 123
assisting others in the use of the Life Saver
Storm Shelters or Greek Cross logo Marks, or
any trademarks or service marks similar
thereto, including but not limited to any
trademark, service mark, trade name or
other source identifier containing the words
Life Saver Storm Shelters, any visually or
phonetically similar words or marks or any
variation thereof, in any form or fashion, and
are ordered to:
1. Immediately cease and desist from
using the Life Saver Storm
Shelters mark or any trademarks
or service marks similar thereto,
including but not limited to any
trademark, service mark, trade
name or other source identifier
containing the words Life Saver
Storm Shelters, any visually or
phonetically similar words or
marks or any variation thereof, as
all or any part of any company
name or domain name,
2. Within ten days of the entry of the
Amended Judgment in this case,
counsel for both parties shall meet
and confer for the purpose of
agreeing upon a custodian for the
materials described hereafter,
within this subparagraph. If no
agreement is reached within five
days, counsel shall advise the

App. 124
Court and a custodian shall be
named by the Court and a fee
determined by the Court to be paid
by the defendants herein. Once the
custodian is selected, defendants
shall deliver to said custodian
within two days any and all
brochures, booklets, pamphlets,
signs, business cards, and other
documents containing any use or
references to the Life Saver Storm
Shelters or Greek Cross Logo
Mark, or any trademarks or service
marks similar thereto, including
but not limited to any trademark,
service mark, trade name, or other
source identifier containing the
words Life Saver Storm Shelters,
any visually or phonetically similar
words or marks or any variations
thereof. Once the appeal period has
lapsed without an appeal or should
there be an appeal that affirms the
Court’s order herein, the above
described materials shall be
destroyed and an affidavit
certifying such destruction and the
method shall be sent to counsel for
4SEMO within 20 days of the last
deadline relative to said appeal
process.
ii.
Within ten days of the entry of the
Judgment in this case, withdraw any and all

App. 125
opposition to the 4SEMO trademark
application pertaining to the Life Saver
Storm Shelters and Greek Cross logo marks
currently pending before the United States
Patent and Trademark Office;
iii.
Within ten days of the entry of the
Judgment in this case, withdraw any and all
applications seeking to register the Life
Saver Storm Shelters mark or any
trademarks or service marks similar thereto,
including but not limited to any trademark,
service mark, trade name or other source
identifier containing the words Life Saver
Storm Shelters, any visually or phonetically
similar words or marks or any variation
thereof which are pending before the United
States Patent and Trademark Office or any
other federal, state or local agency;
iv.
within twenty-one days of the entry
of the Judgment in this case, remove and
permanently discontinue and destroy (or
cause to be removed, discontinued and
destroyed) all video, audio, auditory, images
and labels containing, using, or being
comprised of the Life Saver Storm Shelters
or Greek Cross logo Mark, or any trademarks
or service marks similar thereto, including
but not limited to any trademark, service
mark, trade name or other source identifier
containing the words Life Saver Storm
Shelters, any visually or phonetically similar
words or marks or any variation thereof, in

App. 126
any form or fashion and any press release,
advertisement, television show, article or
other form of publication using or referencing
the Life Saver Storm Shelters or Greek Cross
logo Mark, or any trademarks or service
marks similar thereto, including but not
limited to any trademark, service mark,
trade name or other source identifier
containing the words Life Saver Storm
Shelters, any visually or phonetically similar
words or marks or any variation thereof, in
any form or fashion;
v.
within twenty-one days of the entry
of the Judgment in this case, remove all
references to or uses of the Life Saver Storm
Shelters or Greek Cross logo Mark, or any
trademarks or service marks similar thereto,
including but not limited to any trademark,
service mark, trade name or other source
identifier containing the words Life Saver
Storm Shelters, any visually or phonetically
similar words or marks or any variation
thereof, from any and all websites, Facebook
pages or other social media pages owned,
operated, maintained or controlled by
Defendants or any person controlled by
Defendants;
vi.
within twenty-one days of the entry
of the Judgment in this case, notify any and
all persons to whom or which any Defendants
have given authorization to use, or whom or
which they have encouraged at any time to

App. 127
use, the Life Saver Storm Shelters or Greek
Cross logo Mark, or any trademarks or
service marks similar thereto, including but
not limited to any trademark, service mark,
trade name or other source identifier
containing the words Life Saver Storm
Shelters, any visually or phonetically similar
words or marks or any variation thereof , or
to whom or which they have given any
brochures, documents or other materials
using any such marks, that such persons
may not use such marks in any form or
fashion, must cease any such use
immediately, and must comply with terms of
this Order and Judgment;
vii.
Within twenty-one days of the
entry of the Judgment in this case, provide a
detailed list of the names, addresses, phone
numbers, and email addresses of all persons
whom or which they have authorized or
claimed to authorize to use the Life Saver
Storm Shelters or Greek Cross logo Mark, or
any trademarks or service marks similar
thereto, including but not limited to any
trademark, service mark, trade name or
other source identifier containing the words
Life Saver Storm Shelters, any visually or
phonetically similar words or marks or any
variation thereof, at any time within the
three years immediately preceding the date
of this Order and Judgment to 4SEMO.Com,
Inc., by delivering such information to
4SEMO.Com, Inc.’s counsel of record in this

App. 128
matter within fifteen days of the date of the
entry of the Judgment herein;
viii. Within twenty-one days of the
entry of the judgment in this case, instruct
any and all third parties to immediately
cease using any and all uses of, or references
to, the Life Saver Storm Shelters or Greek
Cross logo Mark, or any trademarks or
service marks similar thereto, including but
not limited to any trademark, service mark,
trade name or other source identifier
containing the words Life Saver Storm
Shelters, any visually or phonetically similar
words or marks or any variation thereof
,which associate the same with Robert
Ingoldsby, Southern Illinois Storm Shelters,
Inc. and Ingoldsby Excavating, Inc., or any
product or service sold or offered for sale by
any of them;
ix.
Within twenty-one days of the
entry of the Judgment in this case, instruct
all Dealers, distributors or other persons who
have storm shelters manufactured by
Defendants in their possession to remove any
stickers, nameplates or other materials
affixing the Life Saver Storm Shelters or
Greek Cross logo Mark, or any trademarks or
service marks similar thereto, including but
not limited to any trademark, service mark,
trade name or other source identifier
containing the words Life Saver Storm
Shelters, any visually or phonetically similar

App. 129
words or marks or any variation thereof to
any storm shelters or other products
purchased from Defendants that such
Dealers have not yet delivered to any of such
Dealers’ customers;
x.
Within twenty-one days of the
entry of the Judgment in this case, cancel
any and all advertisements, including any
yellow pages’ advertisements, which utilize
the Life Saver Storm Shelters or Greek Cross
logo Mark, or any trademarks or service
marks similar thereto, including but not
limited to any trademark, service mark,
trade name or other source identifier
containing the words Life Saver Storm
Shelters, any visually or phonetically similar
words or marks or any variation thereof.
c. Costs and Attorney’s Fees
i.
Contrary to the assertions and
arguments of the Plaintiff, this case is not
exceptional within the meaning of 15 U.S.C.
§1117 nor are sanctions warranted. The
motion for attorneys’ fees (Doc. 259) is
DENIED.
ii.
The plaintiff is awarded costs in
accordance with 28 U.S.C. §1920 and shall
submit a bill of costs with supporting
documentation within 30 days of judgment.

App. 130
d. Dismissal of Withdrawn Counts
i.
Counts II, IV, VI, VII, XI or XII of
4SEMO’s Second Amended Counterclaim,
which were not submitted by 4SEMO.Com at
trial, are hereby dismissed.
2. The Commissioner of the Trademark Office is
hereby directed to:
a. Take notice of the facts, conclusions of law
and judgments established by this Amended
Findings of Fact, Conclusions of Law and Order
and Amended Judgment in conjunction with its
determination of the pending trademark
application of 4SEMO.Com, Inc. bearing
Application Number 85513614 and the
opposition of Southern Illinois Storm Shelters
Inc. to such application, bearing filing date
10/10/2012 and ESTTA Tracking number
ESTTA499340, and
b. Take notice of the facts, conclusions of law
and judgments established by this Amended
Findings of Fact, Conclusions of Law and Order
and Amended Judgment in conjunction with its
determination of the Trademark Application of
Southern Illinois Storm Shelters, Inc., bearing
Application Number 76712028;
3. The Clerk of the Court is directed to
a. enter an Amended Judgment in
accordance with the Court’s prior rulings
directed to the affirmative claims brought by
Defendants in the name of Southern Illinois

App. 131
Storm Shelters, Inc. in which the Court granted
4SEMO’s Motions to Strike the Damages claims,
to Dismiss Counts 3 through 7, and for
Summary Judgment on Counts 1 and 2, as SISS
as previously directed by the Court in this
Court’s Orders of February 20, 2015 [Doc.123],
August 11, 2015 [Doc.149], and August 26, 2015
[Doc. 150];
b. enter an Amended judgment in
accordance with this Amended Memorandum
and Order for $17,397.943.00 and a permanent
injunction, and
c. provide a certified copy of these Amended
Findings of Fact, Conclusions of Law and Order
and Amended Judgment to the Commissioner of
the US Patent and Trademark Office for
consideration in conjunction with Trademark
Applications 85513614 and 76712028.
IT IS SO ORDERED.
/s/David Herndon Judge Herndon
2018.03.29
16:10:25-05'00'
United
Judge

States

District

App. 132

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
Nos. 18-1998 & 18-2095
[Filed November 5, 2019]
Before
FRANK H. EASTERBROOK, Circuit Judge
DIANE S. SYKES, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
________________________________
4SEMO.COM INCORPORATED, )
Plaintiff-Appellee/
)
Cross-Appellant,
)
)
v.
)
)
SOUTHERN ILLINOIS STORM )
SHELTERS, INC., INGOLDSBY )
EXCAVATING, INC., and BOB
)
INGOLDSBY,
)
Defendants-Appellants/
)
Cross-Appellees,
)
)
and
)
)
ROMAN A. BASI and ALFRED
)

App. 133
E. SANDERS JR.,
)
Intervenors/Appellees.
)
________________________________ )
Appeal from the United States District Court for the
Southern District of Illinois.
No. 3:13-cv-00297 DRH/SCW
David R. Herndon, Judge.
ORDER
On consideration of the petition for rehearing and
for rehearing en banc, no judge in active service has
requested a vote on the petition for rehearing en banc,
and all of the judges on the original panel have voted to
deny rehearing. It is therefore ordered that the petition
for rehearing and for rehearing en banc is DENIED.

App. 134

APPENDIX E
15 U.S.C. § 1057
(a) Issuance and form
Certificates of registration of marks registered upon
the principal register shall be issued in the name of the
United States of America, under the seal of the United
States Patent and Trademark Office, and shall be
signed by the Director or have his signature placed
thereon, and a record thereof shall be kept in the
United States Patent and Trademark Office. The
registration shall reproduce the mark, and state that
the mark is registered on the principal register under
this chapter, the date of the first use of the mark, the
date of the first use of the mark in commerce, the
particular goods or services for which it is registered,
the number and date of the registration, the term
thereof, the date on which the application for
registration was received in the United States Patent
and Trademark Office, and any conditions and
limitations that may be imposed in the registration.
(b) Certificate as prima facie evidence
A certificate of registration of a mark upon the
principal register provided by this chapter shall be
prima facie evidence of the validity of the registered
mark and of the registration of the mark, of the owner’s
ownership of the mark, and of the owner’s exclusive
right to use the registered mark in commerce on or in
connection with the goods or services specified in the

App. 135
certificate, subject to any conditions or limitations
stated in the certificate.
(c) Application to register mark considered constructive
use
Contingent on the registration of a mark on the
principal register provided by this chapter, the filing of
the application to register such mark shall constitute
constructive use of the mark, conferring a right of
priority, nationwide in effect, on or in connection with
the goods or services specified in the registration
against any other person except for a person whose
mark has not been abandoned and who, prior to such
filing—
(1) has used the mark;
(2) has filed an application to register the mark
which is pending or has resulted in registration of
the mark; or
(3) has filed a foreign application to register the
mark on the basis of which he or she has acquired
a right of priority, and timely files an application
under section 1126(d) of this title to register the
mark which is pending or has resulted in
registration of the mark.
(d) Issuance to assignee
A certificate of registration of a mark may be issued to
the assignee of the applicant, but the assignment must
first be recorded in the United States Patent and
Trademark Office. In case of change of ownership the
Director shall, at the request of the owner and upon a

App. 136
proper showing and the payment of the prescribed fee,
issue to such assignee a new certificate of registration
of the said mark in the name of such assignee, and for
the unexpired part of the original period.
(e) Surrender, cancellation, or amendment by owner
Upon application of the owner the Director may permit
any registration to be surrendered for cancellation, and
upon cancellation appropriate entry shall be made in
the records of the United States Patent and Trademark
Office. Upon application of the owner and payment of
the prescribed fee, the Director for good cause may
permit any registration to be amended or to be
disclaimed in part: Provided, That the amendment or
disclaimer does not alter materially the character of
the mark. Appropriate entry shall be made in the
records of the United States Patent and Trademark
Office and upon the certificate of registration.
(f) Copies of United States Patent and Trademark
Office records as evidence
Copies of any records, books, papers, or drawings
belonging to the United States Patent and Trademark
Office relating to marks, and copies of registrations,
when authenticated by the seal of the United States
Patent and Trademark Office and certified by the
Director, or in his name by an employee of the Office
duly designated by the Director, shall be evidence in all
cases wherein the originals would be evidence; and any
person making application therefor and paying the
prescribed fee shall have such copies.

App. 137
(g) Correction of United States Patent and Trademark
Office mistake
Whenever a material mistake in a registration,
incurred through the fault of the United States Patent
and Trademark Office, is clearly disclosed by the
records of the Office a certificate stating the fact and
nature of such mistake shall be issued without charge
and recorded and a printed copy thereof shall be
attached to each printed copy of the registration and
such corrected registration shall thereafter have the
same effect as if the same had been originally issued in
such corrected form, or in the discretion of the Director
a new certificate of registration may be issued without
charge. All certificates of correction heretofore issued
in accordance with the rules of the United States
Patent and Trademark Office and the registrations to
which they are attached shall have the same force and
effect as if such certificates and their issue had been
specifically authorized by statute.
(h) Correction of applicant’s mistake
Whenever a mistake has been made in a registration
and a showing has been made that such mistake
occurred in good faith through the fault of the
applicant, the Director is authorized to issue a
certificate of correction or, in his discretion, a new
certificate upon the payment of the prescribed fee:
Provided, That the correction does not involve such
changes in the registration as to require republication
of the mark.

App. 138
15 U.S.C. § 1072
Registration of a mark on the principal register
provided by this chapter or under the Act of March 3,
1881, or the Act of February 20, 1905, shall be
constructive notice of the registrant’s claim of
ownership thereof.
15 U.S.C. § 1127
In the construction of this chapter, unless the contrary
is plainly apparent from the context—
The United States includes and embraces all territory
which is under its jurisdiction and control.
The word “commerce” means all commerce which may
lawfully be regulated by Congress.
The term “principal register” refers to the register
provided for by sections 1051 to 1072 of this title, and
the term “supplemental register” refers to the register
provided for by sections 1091 to 1096 of this title.
The term “person” and any other word or term used to
designate the applicant or other entitled to a benefit or
privilege or rendered liable under the provisions of this
chapter includes a juristic person as well as a natural
person. The term “juristic person” includes a firm,
corporation, union, association, or other organization
capable of suing and being sued in a court of law.
The term “person” also includes the United States, any
agency or instrumentality thereof, or any individual,
firm, or corporation acting for the United States and
with the authorization and consent of the United

App. 139
States. The United States, any agency or
instrumentality thereof, and any individual, firm, or
corporation acting for the United States and with the
authorization and consent of the United States, shall
be subject to the provisions of this chapter in the same
manner and to the same extent as any
nongovernmental entity.
The term “person” also includes any State, any
instrumentality of a State, and any officer or employee
of a State or instrumentality of a State acting in his or
her official capacity. Any State, and any such
instrumentality, officer, or employee, shall be subject
to the provisions of this chapter in the same manner
and to the same extent as any nongovernmental entity.
The terms “applicant” and “registrant” embrace the
legal representatives, predecessors, successors and
assigns of such applicant or registrant.
The term “Director” means the Under Secretary of
Commerce for Intellectual Property and Director of the
United States Patent and Trademark Office.
The term “related company” means any person whose
use of a mark is controlled by the owner of the mark
with respect to the nature and quality of the goods or
services on or in connection with which the mark is
used.
The terms “trade name” and “commercial name” mean
any name used by a person to identify his or her
business or vocation.
The term “trademark” includes any word, name,
symbol, or device, or any combination thereof—

App. 140
(1) used by a person, or
(2) which a person has a bona fide intention to use
in commerce and applies to register on the principal
register established by this chapter,
to identify and distinguish his or her goods,
including a unique product, from those
manufactured or sold by others and to indicate the
source of the goods, even if that source is unknown.
The term “service mark” means any word, name,
symbol, or device, or any combination thereof—
(1) used by a person, or
(2) which a person has a bona fide intention to use
in commerce and applies to register on the principal
register established by this chapter,
to identify and distinguish the services of one
person, including a unique service, from the services
of others and to indicate the source of the services,
even if that source is unknown. Titles, character
names, and other distinctive features of radio or
television programs may be registered as service
marks notwithstanding that they, or the programs,
may advertise the goods of the sponsor.
The term “certification mark” means any word, name,
symbol, or device, or any combination thereof—
(1) used by a person other than its owner, or
(2) which its owner has a bona fide intention to
permit a person other than the owner to use in

App. 141
commerce and files an application to register on the
principal register established by this chapter,
to certify regional or other origin, material, mode of
manufacture, quality, accuracy, or other
characteristics of such person’s goods or services or
that the work or labor on the goods or services was
performed by members of a union or other
organization.
The term “collective mark” means a trademark or
service mark—
(1) used by the members of a cooperative, an
association, or other collective group or
organization, or
(2) which such cooperative, association, or other
collective group or organization has a bona fide
intention to use in commerce and applies to register
on the principal register established by this chapter,
and includes marks indicating membership in a
union, an association, or other organization.
The term “mark” includes any trademark, service
mark, collective mark, or certification mark.
The term “use in commerce” means the bona fide use of
a mark in the ordinary course of trade, and not made
merely to reserve a right in a mark. For purposes of
this chapter, a mark shall be deemed to be in use in
commerce—

App. 142
(1) on goods when—
(A) it is placed in any manner on the goods or their
containers or the displays associated therewith or
on the tags or labels affixed thereto, or if the nature
of the goods makes such placement impracticable,
then on documents associated with the goods or
their sale, and
(B) the goods are sold or transported in commerce,
and
(2) on services when it is used or displayed in the
sale or advertising of services and the services are
rendered in commerce, or the services are rendered
in more than one State or in the United States and
a foreign country and the person rendering the
services is engaged in commerce in connection with
the services.
A mark shall be deemed to be “abandoned” if either of
the following occurs:
(1) When its use has been discontinued with intent
not to resume such use. Intent not to resume may
be inferred from circumstances. Nonuse for 3
consecutive years shall be prima facie evidence of
abandonment. “Use” of a mark means the bona fide
use of such mark made in the ordinary course of
trade, and not made merely to reserve a right in a
mark.
(2) When any course of conduct of the owner,
including acts of omission as well as commission,
causes the mark to become the generic name for the
goods or services on or in connection with which it

App. 143
is used or otherwise to lose its significance as a
mark. Purchaser motivation shall not be a test for
determining abandonment under this paragraph.
The term “colorable imitation” includes any mark
which so resembles a registered mark as to be likely to
cause confusion or mistake or to deceive.
The term “registered mark” means a mark registered
in the United States Patent and Trademark Office
under this chapter or under the Act of March 3, 1881,
or the Act of February 20, 1905, or the Act of March 19,
1920. The phrase “marks registered in the Patent and
Trademark Office” means registered marks.
The term “Act of March 3, 1881”, “Act of February 20,
1905”, or “Act of March 19, 1920”, means the respective
Act as amended.
A “counterfeit” is a spurious mark which is identical
with, or substantially indistinguishable from, a
registered mark.
The term “domain name” means any alphanumeric
designation which is registered with or assigned by any
domain name registrar, domain name registry, or other
domain name registration authority as part of an
electronic address on the Internet.
The term “Internet” has the meaning given that term
in section 230(f)(1) of title 47.
Words used in the singular include the plural and vice
versa.

App. 144
The intent of this chapter is to regulate commerce
within the control of Congress by making actionable
the deceptive and misleading use of marks in such
commerce; to protect registered marks used in such
commerce from interference by State, or territorial
legislation; to protect persons engaged in such
commerce against unfair competition; to prevent fraud
and deception in such commerce by the use of
reproductions, copies, counterfeits, or colorable
imitations of registered marks; and to provide rights
and remedies stipulated by treaties and conventions
respecting trademarks, trade names, and unfair
competition entered into between the United States
and foreign nations.

